<html>
<title> - NATIONAL PARKS AIR TOUR MANAGEMENT ACT</title>
<body><pre>[Senate Hearing 108-731]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-731

                 NATIONAL PARKS AIR TOUR MANAGEMENT ACT

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   TO

   CONDUCT OVERSIGHT ON THE IMPLEMENTATION OF THE NATIONAL PARKS AIR 
              MANAGEMENT ACT OF 2000 (PUBLIC LAW 106-181)

                               __________

                             JULY 22, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-456                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     CRAIG THOMAS, Wyoming Chairman
                  DON NICKLES, Oklahoma Vice Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Carolina
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................    13
Barger, Don, Southeast Region Director, National Parks 
  Conservation Association.......................................    32
Chevalier, J. David, CEO, Blue Hawaiian Helicopters, Kahului, HI.    25
Hoffman, Paul, Deputy Assistant Secretary, Fish and Wildlife and 
  Parks, Department of the Interior..............................     7
Maynard, Charles W., Member of the National Parks Overflight 
  Advisory Group.................................................    28
Resavage, Roy, President, Helicopter Association International, 
  Alexandria, VA.................................................    22
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Withycombe, William C., Regional Administrator, Western-Pacific 
  Region, Federal Aviation Administration........................     2

                                APPENDIX

Responses to additional questions................................    45

 
                        NATIONAL PARKS AIR TOUR 
                             MANAGEMENT ACT

                              ----------                              


                        THURSDAY, JULY 22, 2004

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Thank you all very much for being here. I 
want to welcome the witnesses today to the National Parks 
Subcommittee.
    Our purpose is to conduct oversight on the implementation 
of the National Parks Air Tour Management Act of 2000.
    The National Parks Air Tour Management Act was passed 4 
years ago. The intent was to ensure that visitors to our 
national parks have a safe and enjoyable experience, whether 
they are visiting on foot or in the air.
    In the 4 years since the act was passed, the Federal 
Aviation Administration and the National Park Service has 
struggled to form a cooperative working relationship. I 
certainly understand and appreciate the hard work of the 
agencies and understand the difficulty of putting something 
like this together. However, I am concerned that it has taken 
the National Park Service and FAA nearly 4 years to complete a 
seven-page memorandum of understanding and that the 
environmental assessment process has only recently begun. This 
is a very slow process. It cannot be good for the parks or for 
the commercial air tour operators.
    The purpose of this hearing is to gain a better 
understanding of some of the issues involved: No. 1, the 
proposed schedule for completion of the planning process; two, 
key issues affecting the cooperative relationship between the 
agencies; and finally, how a lengthy implementation schedule 
may affect the commercial air tour operations and the national 
park resources.
    So I hope we can address those issues, get an idea of where 
we are, what the schedule for completion would be, what are the 
key issues that still exist with respect to the agencies, and 
then talk a little bit about the impact that we are having by 
having this rather long time to get into place.
    So I want to welcome panel one: Mr. Bill Withycombe, 
Regional Administrator, Western-Pacific Region of FAA, and Mr. 
Paul Hoffman, Deputy Assistant Secretary, Fish and Wildlife and 
Parks, the Department of the Interior. Thank you, gentlemen, 
for being here.
    Your full statements will be put in the record and if you 
would just kind of summarize it and tell us where you are, why, 
we will appreciate it. Would you like to begin, Mr. Withycombe.

  STATEMENT OF WILLIAM C. WITHYCOMBE, REGIONAL ADMINISTRATOR, 
    WESTERN-PACIFIC REGION, FEDERAL AVIATION ADMINISTRATION

    Mr. Withycombe. Good afternoon. I would like to thank the 
subcommittee for the opportunity to appear before you today, 
along with my colleague, Deputy Assistant Secretary Hoffman, on 
the implementation of the National Parks Air Tour Management 
Act of 2000.
    I am the FAA Regional Administrator who has been given the 
program responsibility for implementing this act. Over the past 
several years, we have worked very closely with the Department 
of the Interior and the National Park Service, better known as 
NPS in my statement, on establishing the groundwork for 
implementing the act. On behalf of Secretary Mineta and 
Administrator Blakey of the FAA, I would like to thank DOI and 
NPS for their dedication and cooperation in this important 
effort.
    I would also like to offer my full statement for the record 
and briefly summarize how FAA has worked with the National Park 
Service to make this program a reality.
    Over time, the popularity and frequency of air tours over 
some of our Nation's national parks has increased. Concern has 
also increased over how the tours were affecting park resources 
and their enjoyment by visitors. In response in 2000, Congress 
enacted the legislation known as the National Parks Air Tour 
Management Act to regulate air tours over parks and tribal 
lands through, among other things, the development of air tour 
management plans. The FAA and the National Park Service 
developed cooperative plans to do this.
    In accordance with the act, the FAA and the National Park 
Service established the National Parks Overflights Advisory 
Group, better known as the NPOAG, which has provided, and 
continues to provide, valuable advice to our agencies on issues 
related to the implementation of the act. In fact, the NPOAG is 
going to be meeting three times during this fiscal year. The 
next meeting is here in Washington on September 9 and 10.
    We also, in cooperation with the National Park Service, 
established minimum altitude to complete our statutory 
definition of what constitutes commercial air tour operations. 
We determined this through rulemaking that was effective in 
January of last year. Along with completing the rulemaking 
action, the FAA and NPS finalized earlier this year a 
Memorandum of Understanding regarding implementation of air 
tour management planning. The MOU establishes a timeframe and 
framework for cooperation and participation between FAA and 
NPS.
    We have also established a website and an advisory circular 
that provides guidance to air tour operators. We also have 
produced a public information video that we use when we hold 
outreach meetings.
    To date, the FAA has received applications for air tour 
operations from 91 separate air tour operators. Commercial air 
tour operations are currently conducted or proposed for over 
107 national parks and 6 specific tribal lands.
    Because the ATMP's are a new program that raise issues that 
have not been dealt with before, we decided the best approach 
would be for the FAA, along with the National Park Service, to 
initiate development of ATMP's and associated environmental 
documents at a relatively small number of parks, 9 of the 113 
locations.
    At each of the nine parks noted above, we have completed 
some baseline noise monitoring, and agency scoping has been 
started. We are now in the initial stages of identifying 
potential impacts and developing ATMP alternatives to mitigate 
or prevent significant adverse impacts on the parks. We are 
doing this under the National Environmental Policy Act, NEPA, 
in cooperation with, of course, the National Park Service in 
preparation of these related documents.
    We have paid particular attention to public outreach in 
this effort, publishing notices of our intent in developing the 
ATMP's and associated environmental documents. We have started 
public scoping in each of these parks that I mentioned before, 
and during the scoping period, we invited the public, agencies, 
and other interested parties to provide detailed comments.
    As recently as last week, we held consultation with the 
Kapuna Group members in Hawaii Volcanoes National Park and 
Haleakala National Park, and with the Federal Advisory 
Commission and other patient community members on Kalaupapa 
National Historical Park. Through consultation, we will better 
understand the cultural resources within each park, the impacts 
of air tour operations on the park resources, and the use of 
them.
    The FAA and the National Park Service will use this 
information we gain through the public outreach effort to 
provide information on the environmental studies that we need 
to do and through the public agency scoping to identify 
significant issues and potentially significant impacts on the 
operations.
    Although we focused on these nine parks, we are moving 
ahead with other parks, specifically four other parks within 
the 48 States. These are located in Arizona and Montana.
    We believe that significant progress has been made so far 
in implementing the act, and we are working together to resolve 
such issues as interim operating authority, new operator 
approval, and increases in flights that have been requested by 
other operators.
    There are challenges associated with this. We have received 
approximately 15 new entrant applications, and the FAA and 
National Park Service are currently working to establish 
criteria and processes for making the necessary determinations 
for granting such authority. We have asked the special NPOAG 
committee to study these issues for us and give us their 
advice.
    In closing, Mr. Chairman, the FAA and the National Park 
Service are working cooperatively and collaboratively to reach 
a conclusion on these matters, and I am confident that mutually 
acceptable conclusions will be reached. I can assure you that 
we take seriously our responsibilities under the act to 
mitigate and prevent significant adverse effects due to air 
tours on the precious resources of our national parks. At the 
same time, we also appreciate the value and benefits afforded 
to the public who wish to view the parks via air tours.
    How to balance these interests in accordance with the 
direction provided by Congress under the act is our task. We 
will look forward to continuing our work with the National Park 
Service on this effort and appreciate the committee's interests 
in our program.
    That concludes my prepared statement. I would be happy to 
address any questions you may have.
    [The prepared statement of Mr. Withycombe follows:]

Prepared Statement of William C. Withycombe, Regional Administrator for 
      the Western-Pacific Region, Federal Aviation Administration

    Chairman Thomas, Senator Akaka, Members of the Subcommittee, good 
afternoon. I would like to thank the Subcommittee for this opportunity 
to appear before you today, along with my colleague from the Department 
of Interior, on our implementation of the National Parks Air Tour 
Management Act of 2000 (Act). I am the Federal Aviation Administration 
(FAA) Regional Administrator who has been given the program 
responsibility for implementing the Act. Over the past several years, 
we have worked very closely with the Department of Interior (DOI) and 
the National Park Service (NPS) on establishing the ground work for 
implementing the Act and, on behalf of Secretary Mineta and 
Administrator Blakey, I would like to thank DOI and NPS for their 
dedication and cooperation in this important effort.
    I would like to briefly describe what the Act provides and how the 
FAA has worked, along with the NPS, to make this new program a reality. 
Over time, as the popularity and frequency of air tours over some of 
our nation's National Parks increased, concern also increased over how 
such tours were affecting Park resources and their use and enjoyment by 
visitors. In response, Congress enacted the National Parks Air Tour 
Management Act on April 5, 2000 as part of the Wendell H. Ford Aviation 
Investment and Reform Act for the 21st Century, known as Air-21. The 
Act requires all persons operating or intending to conduct a commercial 
air tour operation over or within half a mile from the border of a 
National Park, or over tribal lands within or abutting a National Park, 
to apply to the FAA for authority to conduct such tours. The Act 
further requires that FAA and NPS cooperatively develop an Air Tour 
Management Plan (ATMP) for each unit of the National Park System or 
tribal land that does not have a plan in effect at the time a person 
applies for tour authority. The purpose of an ATMP is to provide 
acceptable and effective measures to mitigate or prevent significant 
adverse impacts, if any, of commercial air tour operations on Park 
natural and cultural resources, visitor experiences, and tribal lands. 
The Act also states that the NPS has the responsibility of conserving 
the scenery and natural and historic objects and wildlife in national 
parks and of providing for the enjoyment of national parks in ways that 
leave them unimpaired for future generations and that the FAA has the 
authority to preserve, protect, and enhance the environment by 
minimizing, mitigating or preventing the adverse effects of aircraft 
overflights on public and tribal lands.
    The Act specifically excludes the Grand Canyon National Park, 
tribal lands within or abutting Grand Canyon National Park, parks or 
tribal lands located in the state of Alaska, and flights conducted by a 
commercial air tour operator over or near the Lake Mead National 
Recreation Area solely as a transportation route to conduct an air tour 
over Grand Canyon. The Act expressly prohibits commercial air tour 
operations over the Rocky Mountain National Park, regardless of 
altitude.
    In addition to the requirements set forth for commercial air tour 
operators, the Act directed the FAA and NPS to establish an Advisory 
Group to provide continuing advice and recommendations with respect to 
the Act's implementation, commonly accepted quiet aircraft technology, 
measures to accommodate Park visitor interests, and any other issues 
that the FAA or NPS request. Accordingly, FAA and NPS established the 
National Parks Overflights Advisory Group (NPOAG), which has provided, 
and continues to provide, valuable advice to both the FAA and NPS on 
issues related to implementation of the Act. In fact, the NPOAG will be 
meeting three times during this fiscal year, the next meeting being 
right here in Washington DC on September 9th and 10th.
    Under the Act, the FAA, with the cooperation of NPS, was required 
to establish a minimum altitude to complete the statutory definition of 
a ``commercial air tour operation.'' Determination of this aspect of 
the definition was necessary before the Act's commercial air tour 
operating requirements could come into effect. The FAA did this through 
rulemaking, seeking public comment through a Notice of Proposed 
Rulemaking, published in April 2001. Approximately 2,400 comments were 
received in response to the Notice. The issuance of the final rule was 
delayed, however, in part, by the priority necessarily given to 
security related rulemaking the FAA conducted following the tragic 
events of September 11, 2001. We issued the final implementing 
regulations on October 25, 2002, with an effective date of January 23, 
2003. The implementing regulations are contained in part 136 of title 
14, Code of Federal Regulations.
    Along with completing the rulemaking actions, the FAA and NPS 
finalized earlier this year a Memorandum of Understanding (MOU) 
regarding implementation of air tour management planning. The MOU 
establishes a framework for cooperation and participation between the 
FAA and NPS. In addition, we have developed several public information 
resources to support implementation of the program. These include:

  <bullet> A website through which the public can obtain detailed 
        information about the program and may register to obtain 
        notification about public involvement opportunities for 
        specific parks. This website address is www.atmp.faa.gov.
  <bullet> FAA Advisory Circular 136-1, which was published on October 
        25, 2003. This Advisory Circular provides guidance to air tour 
        operators on the application process and other details related 
        to compliance with Federal Aviation Regulation Part 136.
  <bullet> A public information video, produced in cooperation with the 
        NPS that provides an overview of the ATMP program. This video 
        has been used during the public outreach and scoping meetings 
        we've held to provide a basic understanding of the program. The 
        video is available for public viewing on the FAA's ATMP 
        website.

    To date, the FAA has received applications for air tour operating 
authority from 91 separate air tour operators. Commercial air tour 
operations are currently conducted, or are proposed for, over 107 
national park units and six specific tribal lands. To put this in 
context, there are currently 384 units of the National Park System in 
the U.S. The level of commercial air tour activity over Parks ranges 
from as many as over 30,000 annual operations over Hawaii Volcanoes 
National Park to as few as five or less annual operations at numerous, 
smaller parks.
    Because the establishment of ATMPs is a new program that raises 
issues that we have not dealt with before, we decided that the best 
approach would be for the FAA, along with the NPS, to first initiate 
development of ATMPs and associated environmental documents at a 
relatively small number of parks--9 of the 113 locations--in order to 
work out any threshold issues regarding implementation before moving on 
to developing plans at all locations. The nine selected parks include 
the three major parks in the state of Hawaii: Hawaii Volcanoes National 
Park, Haleakala National Park, and Kalaupapa National Historical Park; 
three smaller parks located on the island of Hawaii; Lake Mead National 
Recreation Area; Mount Rushmore National Monument; and Badlands 
National Park. These parks were selected based on consideration of the 
level of air tour activity, unique issues associated with the 
particular park, economies of travel, the expertise and ongoing working 
relationships among local NPS and FAA staff and the air tour operators, 
and/or the previous activities related to management of air tour 
operations.
    ATMPs and supporting environmental reviews under the National 
Environmental Policy Act (NEPA) are required for each park where air 
tours are, or will be, conducted regardless of the level of tour 
activity. We intend to implement each ATMP through rulemaking, which 
will require some time, but will ensure that all interested parties 
have the opportunity to understand and comment on the ATMPs. All ATMPs 
will be subject to public participation. We anticipate that the first 
ATMPs will be completed in late 2005.
    At each of the nine parks noted above, we have completed some 
baseline noise monitoring and public and agency scoping. We are now in 
the initial stages of identifying potential impacts and developing ATMP 
alternatives to mitigate or prevent significant adverse impacts on the 
parks. To comply with the National Environmental Policy Act of 1969 
(NEPA), the FAA and NPS will cooperatively prepare an Environmental 
Assessment (EA) for each ATMP. Based on the results of the EA, the FAA 
will prepare either a Finding of No Significant Impact (FONSI) or a 
full Environmental Impact Statement.
    We have paid particular attention to public outreach, publishing 
notices of our intent to develop the ATMPs and associated Environmental 
Assessments for each of the nine parks in March and April this year. We 
completed public and agency scoping meetings in April and May. As 
required by the Act, we held at least one public scoping meeting and an 
agency scoping meeting for each project. During the scoping period, we 
invited the public, agencies, and other interested parties to provide 
detailed comments, suggestions, and input regarding all aspects of 
commercial air tour operations and their potential impacts, as well 
potential ATMP alternatives. We also successfully facilitated the 
filing of public comments through our website.
    We, along with the NPS, have also initiated specific consultation 
regarding potential impacts to historic properties, in accordance with 
section 106 of the National Historic Preservation Act, and have pursued 
Government-to-Government consultations with affected Indian Tribes. As 
recently as last week, we held consultations with Kupuna (Native 
Hawaiian Elders) Group members at Hawaii Volcanoes National Park and 
Haleakala National Park and with the Federal Advisory Commission and 
other patient and community members at Kalaupapa National Historical 
Park. Through consultation, we will better understand the cultural 
resources within each Park, the impacts of air tour operations on park 
resources and the use of them, and gain an appreciation for concerns 
about air tour operations in general.
    FAA and NPS will use the information gained through this public 
outreach along with information gained in ongoing environmental studies 
and through public and agency scoping to identify the significant 
issues and potentially significant and adverse impacts related to 
commercial air tour operations. We certainly recognize that there are 
very disparate views on this subject. That is why we are moving 
carefully and seeking as much public input and information as possible 
to help guide development of ATMP alternatives and provide the basis 
for determining if any limitations or restrictions on commercial air 
tour operations are necessary and justified.
    Although our focus so far has been on these nine parks, we are also 
moving ahead on certain studies for other parks. Specifically, we will 
initiate noise monitoring at four additional parks this summer in 
conjunction with the primary air tour season. These parks include 
Glacier National Park located in Montana, and three parks in Arizona: 
Canyon De Chelly National Monument, Navajo National Monument, and the 
Petrified Forest National Park.
    With regard to resources to support implementation of the ATMP 
program, the FAA has received $21 million over the past four fiscal 
years (FY-01 through FY-04). To date, we have obligated $19 million 
towards our operational costs and to the Volpe National Transportation 
System Center (Volpe Center), administered by one of our sister DOT 
agencies, the Research and Special Programs Administration (RSPA), to 
provide contract support to the program. We have tasked the Volpe 
Center to develop environmental and ATMP documents for a total of 18 
park and tribal land locations. The current level of obligation can 
fund an additional 18 locations, which brings the total locations 
currently funded to 36. Our current estimates indicate a cost of 
approximately $.5 million per location to complete the development of 
the required NEPA and ATMP documents. Under the terms of our MOU, the 
FAA and NPS have agreed to a cost sharing of 60% FAA and 40% NPS for 
preparing ATMPs, subject to availability of funding. However, to date, 
the NPS has not been able to provide funding for the program.
    We believe that we have made significant progress so far in 
implementing the Act, overcoming certain challenges to interagency 
collaboration by working together to resolve policy matters and to 
improve communication. However, our work is far from finished. There 
are several important issues that we are now in the process of 
resolving. These include matters related to noise modeling and 
determining significance of environmental impacts. Also, we are in the 
process of double-checking the basis for interim operating authority 
granted to existing commercial air tour operators because we think 
misunderstandings about how to count air tour operations per Park have 
led to cases of inaccurate numbers of authorized flights. We must 
additionally handle requests from existing tour operators for increases 
in flights over Parks pending development of applicable ATMPs. The FAA 
has received a number of requests from existing operators for increases 
in air tour operations and we anticipate more requests in the future. 
No increases have been authorized to date because of concerns about the 
accuracy of current flight numbers and because criteria and a process 
for granting increases are still under development by FAA and NPS.
    Another challenge we face is the issuance of interim operating 
authority to new entrant tour operators. The FAA has required tour 
operators who initiated service after the Act was enacted to cease 
operations pending the development of the ATMP or until interim 
operating authority is granted to them as a new entrant. Under the Act, 
interim operating authority may only be granted to a new entrant if the 
FAA determines that it is necessary to ensure competition, and may not 
be granted if we determine it would create a safety problem or if the 
NPS determines it would create a noise problem. Approximately 15 new 
entrant applications have been received. FAA and the NPS are currently 
working on establishing criteria and processes for making such 
determinations, and we have asked for the advice of the NPOAG on this 
issue.
    In closing, Mr. Chairman, the FAA and the NPS are working 
cooperatively and collaboratively to reach a conclusion on these and 
other matters, and I am confident that mutually acceptable conclusions 
will be reached. I can assure you that we take very seriously our 
responsibility under the Act to mitigate or prevent significant adverse 
effects due to air tours on the precious resources of our national 
parks. At the same time, we also appreciate the value and benefits 
afforded to the public who wish to view our parks via air tours. How to 
balance these interests in accordance with the direction provided by 
Congress under the Act is our task. We look forward to continuing our 
work with the NPS on this effort and appreciate this Committee's 
interest in our programs.
    That concludes my prepared statement. I would be happy to address 
any questions you may have.

    Senator Thomas. All right, sir. Thank you very much.
    Mr. Secretary.

          STATEMENT OF PAUL HOFFMAN, DEPUTY ASSISTANT 
          SECRETARY FOR FISH AND WILDLIFE AND PARKS, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Hoffman. Thank you, Mr. Chairman, for the opportunity 
to testify on behalf of the Department of the Interior on the 
implementation of the National Parks Air Tour Management Act of 
2000, and thank you for including my written testimony in the 
record.
    The National Parks Air Tour Management Act directs both the 
Park Service and the FAA to develop plans for the 107 park 
units that currently have air tour operations. The act directs 
the FAA and the Park Service to work cooperatively in the 
development of these plans. Specifically the act says that FAA 
is the lead on NEPA analysis. The Park Service is a cooperating 
agency, but both of us are required to sign an EA or an EIS 
that is the output of that NEPA process.
    Before we could get started developing any actual plans, 
there was some big-picture coordination, if you will, that was 
required for us to establish some of the processes and 
standards by which we develop these plans. My cohort, Mr. 
Withycombe, mentioned that there was a National Parks 
Overflights Advisory Group established, and they have been a 
very important part of the process. They assisted in the 
development of regulations associated with this law and provide 
input on an ongoing basis, helping us in analyzing these 
issues.
    It was necessary for us to identify the responsible 
personnel within each agency for the development and 
implementation of these plans.
    There was the need to meld two fairly distinct 
organizational missions. The Federal Aviation Administration is 
largely responsible for managing our airspace and ensuring that 
air travel is safe and available to the general public. That 
was a pretty good butcher job of a description of your mission, 
Bill. And of course, the Park Service mission is to conserve 
the natural resources and the wildlife and the cultural and 
historic resources, while maintaining the opportunity for 
people to visit those and do that in such a way as to leave 
them both unimpaired for future generations.
    There was a lot of work to be done to reach agreement on 
how impacts are analyzed. Impacts from air tours are a unique 
blend of science and analysis.
    There was a need for scheduling and budgeting for the air 
tour management plans.
    And there was a need to reconcile our distinct agency 
approaches to conducting NEPA analysis.
    And we had to develop some interim operating authorities 
for the existing air tour operators at the 107 parks in order 
to allow them to continue to do business until an air tour 
management plan is developed for each of those parks.
    We have made some progress and we have some procedural 
accomplishments. We did sign an MOU on how we would conduct 
this process. The Park Service signed that in January of this 
year. So that is in place. Even though the act designates the 
FAA as the lead agency and the Park Service as a cooperating 
agency, under our MOU there is much more emphasis on 
cooperative NEPA analysis and cooperative development of the 
science that goes into the analysis of these impacts.
    The MOU also assigns responsibility for the funding of the 
development of ATMP's with the FAA picking up 60 percent and 
the Park Service picking up 40 percent of the cost of each 
ATMP.
    There was a high-level meeting held this January over at 
FAA. I attended part of that meeting. It was also attended by 
the Council on Environmental Quality, and I would characterize 
it as a very successful meeting. It concluded after 2 days of 
hard, rigorous work. There are greatly improved communications 
as a result of that. I think there is greater respect by each 
agency of the other agency's missions. I think we established 
some boundaries as to our missions, and we agreed on an 
approach to conducting NEPA.
    We are working to develop an agreement on an implementation 
plan for the development of ATMP's. The basis for this is that 
we believe having an implementation plan will give us a more 
legally defensible plan in the end. It will address some of the 
broader issues. We can negotiate them once, make them part of 
the implementation plan, instead of negotiating them with each 
plan. It will provide greater efficiencies and more consistency 
in the development of these plans. The draft implementation 
plan is expected to be available by the middle of August.
    There is greater coordination and cooperative development 
regarding technical issues relative to the measurement of sound 
and the analyses of those sounds that are conducted. We are 
working very closely with the Department of Transportation's 
Volpe Center, which is their contractor that conducts sound 
modeling and measurement and analysis processes for the FAA. We 
are utilizing the FICAN committee to help us address some of 
the questions we each have about how we measure and analyze 
sound.
    The reality of this is that this issue is somewhat 
complicated by the spill-over impacts of what we do with ATMP's 
and how that can impact or is impacted by what we are doing 
with the Grand Canyon Overflights Act to resolve the air tour 
issue there or how that spills over into affecting how the FAA 
analyzes airport expansion projects or how noise analysis and 
impacts affect military preparedness, the military training 
exercises. So what we do in the way of analyzing sound impacts 
and measuring those sounds and addressing those impacts has 
pretty significant spill-over impacts in other areas of 
responsibility for the FAA and the Park Service.
    We have a current air tour management plan process 
underway. Bill hit on that. We are analyzing and starting the 
process for six parks in Hawaii, four on the big island, one 
each on Maui and on Molokai, and we have seven mainland parks 
that we are in the process of developing ATMP's for.
    We have held coordination and familiarization meetings with 
the parks so that the FAA and the parks could share information 
specific to those particular units. We have had scoping 
meetings in Hawaii, as well as Lake Mead, Badlands National 
Park and Mount Rushmore National Monument. And we have acoustic 
monitoring that has or is taking place in those parks, as well 
as four other parks, the Navajo National Monument, Canyon de 
Chelly, Petrified Forest, and Glacier National Parks.
    We are continuing our coordinated and cooperative approach 
to developing air tour management plans. We are working on 
acoustic measurements and the analyses and the modeling. This 
is a very complicated subject that requires a lot of detailed 
attention. We are addressing issues which are sort of unique to 
air tour management plans, such as the difference between 
sounds that are audible versus noticeable. We are addressing 
differences in the way the FAA looks at impacts where they 
consider and the act actually directs them to analyze and 
mitigate significant adverse impacts, and the Park Service 
standard is impairment of resources. All impacts do not 
constitute impairment, but all impairments are impacts. So we 
are working through some of those delicate differences.
    We have improved our NEPA coordination. We have got respect 
for each agency's expertise. The FAA recognizes that the Park 
Service's specific expertise is in protecting resources and the 
values for which the parks were established, and we recognize 
that the FAA's expertise is in managing airspace and keeping 
the airspace that people fly in safe.
    That pretty much concludes my testimony, and I will open it 
up to questions as well. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hoffman follows:]

  Prepared Statement of Paul Hoffman, Deputy Assistant Secretary for 
        Fish and Wildlife and Parks, Department of the Interior

    Mr. Chairman, thank you for the opportunity to report to the 
committee on the status of implementation of the National Parks Air 
Tour Management Act (NPATMA). I am pleased to report that much progress 
has been made since our last appearance before the Senate Subcommittee 
on Aviation in 2002. I will briefly address the specific aspects of the 
program in which the Committee has noted interest.

        OVERALL IMPLEMENTATION--PROGRAM PLANNING AND DEVELOPMENT

    Pursuant to the NPATMA, the National Park Service Air Tour 
Management Program (ATMP) is responsible for working with the Federal 
Aviation Administration (FAA) to develop air tour management plans in 
the 107 park units where operators have applied for operating 
authority. The development of this many plans requires considerable 
coordination between the National Park Service (NPS) and the FAA 
including identifying 1) the roles and responsibilities of the FAA and 
the NPS personnel, 2) how to ensure that the missions of the two 
agencies are both incorporated in the planning process, 3) how resource 
impacts are to be analyzed, and 4) schedules, budgets, and other basic 
elements fundamental to program planning. Perhaps the biggest challenge 
to program implementation for their two agencies has been how to 
reconcile our differing agency-specific requirements for National 
Environmental Policy Act (NEPA) documents.
    Both the NPS and the FAA have made significant efforts this past 
year that have resulted in improved agency relations and allowed us to 
move forward together in various areas. A summary of these efforts is 
followed by a more detailed description of each of the relevant issues.
    After enactment of NPATMA, the agencies began working on an 
implementation plan to address how the environmental documents will be 
prepared, how park units will be prioritized with respect to the 107 
air tour management plans, and how agency personnel will administer 
both programmatic and park-specific tasks. In 2003, a decision was made 
to set aside the development of the implementation plan in favor of 
initiating park-specific planning for more than 20 units. In January 
2004, key officials, lawyers, and program staff from the FAA and the 
NPS met for two days to establish better working relationships and 
address some higher-level policy matters, including how best to meet 
Congress's intent that we better manage air tours to protect park 
resources from any potential adverse impacts from those air tours. The 
meetings were hailed as a huge success by both agencies, providing 
insight, knowledge, perspective, and respect for the other agency. 
During the meeting, the FAA and NPS finalized a Memorandum of 
Understanding to guide the cooperative effort of the two agencies, as 
specified in NPATMA. In May 2004, both agencies agreed that, in 
addition to moving forward on park-specific plans, they should return 
to efforts to complete the implementation plan. In doing so, the FAA 
and NPS acknowledged that negotiating the broad-based issues in the 
context of the implementation plan, rather than renegotiating similar 
issues for each park, would be more efficient and would help achieve 
greater consistency and more legally defensible park-specific plans. 
The FAA and the NPS met the week of June 21, 2004 to write the 
implementation plan and intend to complete a final draft by mid-August 
2004.
    Shortly after enactment of NPATMA, the DOT's Volpe Center was 
contracted by the FAA to assist in the coordination of technical issues 
and development of Environmental Assessments (EAs), and has been a 
critical partner in the implementation of the ATMP for both agencies. 
The NPS and the FAA meet twice a year for program planning with the 
DOT's Volpe Center. The Volpe Center program staff has been involved in 
the production of both work schedules and cost estimates for the air 
tour management plan EAs. Although initially working mostly through the 
FAA, the Volpe Center staff has also begun working closely with the NPS 
as our collaborative efforts continue to trickle down through both 
agencies.

         PARK-SPECIFIC AIR TOUR MANAGEMENT PLAN IMPLEMENTATION

    As mentioned above, in 2003, the FAA and the NPS initiated air tour 
management plans for 13 specific park units: six\1\ in Hawaii, and 
seven\2\ in the continental U.S. Initial meetings were held with 
federal and local team members at each park unit to provide an 
orientation to the park, to discuss air operations at the park, and to 
acquaint the park personnel with the process and scheduling for air 
tour planning. The meetings were also used to initiate the collection 
of necessary information including resource data and contact 
information for potentially affected or interested parties and 
agencies.
---------------------------------------------------------------------------
    \1\ Haleakala and Hawaii Volcanoes National Parks; Kalaupapa, 
Kaloko-Honokohau, Pu'uuhonua-Honaunau National Historical Parks; and 
Puukohola Heiau National Historic Site.
    \2\ Yellowstone, Badlands, and Petrified Forest National Parks; 
Lake Mead National Recreation Area; Navajo and Canyon de Chelly 
National Monuments; and Mount Rushmore National Memorial.
---------------------------------------------------------------------------
    During November and December 2003, the NPS and the FAA developed 
materials to aid in the NEPA scoping for nine\3\ park units, including 
notices published in the Federal Register. In March 2004, notices were 
published, public and agency scoping meetings were held, and NEPA 
document preparation was begun.
---------------------------------------------------------------------------
    \3\ The six Hawaii park units, Lake Mead NRA, Badlands NP, and 
Mount Rushmore N Mem.
---------------------------------------------------------------------------
    The draft analysis of acoustic data for Hawaii Volcanoes National 
Park was produced in May 2004. At the Implementation Plan meeting in 
Fort Collins in June 2004, a preliminary process for evaluating public 
comments and developing air tour management plan alternatives was 
developed. These processes will also be included in the implementation 
plan. Acoustic monitoring will begin this summer at Navajo National 
Monument, Canyon de Chelly National Monument, Petrified Forest National 
Park, and Glacier National Park. Collecting data this summer will allow 
us to begin preparing the EA for these parks in 2005. This latest 
monitoring exercise is a prime example of the type of sensible, cost-
effective, geographic clustering both agencies are pursuing.

                        INTERAGENCY COOPERATION

    Consistent with the Administration's objective of encouraging 
interagency collaboration in these matters, the Department of the 
Interior and the NPS have been working closely with the FAA to 
establish cooperative procedures for the preparation of air tour 
management plans. We have worked hard together to improve what started 
out as a challenging joint venture.
    The January 2004 meeting, mentioned earlier in the testimony, was 
very successful in improving the working relationship between the FAA 
and NPS. Each agency made an effort to better understand the other 
agency and its mandates. For example, the NPS learned that the FAA has, 
on several occasions, been willing to mitigate even in situations where 
adverse impacts are less than ``significant'' under NEPA and, under 
certain conditions, is willing to do so for air tour management plans. 
Likewise, the FAA learned that the NPS does not view all impacts as 
necessarily ``adverse impacts'' or ``impairment'' under NEPA, as they 
had previously thought, but rather, that our resource conservation 
mandates require that we attempt to mitigate all adverse impacts not 
just those that are significant. With the help from the President's 
Council on Environmental Quality (CEQ), the two agencies were able to 
gain greater understanding of each other's core mission and the full 
implications of the NPATMA. Perhaps most important, the agencies agreed 
to adhere to the fundamental principal of ``agency expertise'' upon 
which NEPA stands.
    The NPS acknowledges the FAA's sole province over air safety, and 
the FAA acknowledges the NPS authority and expertise regarding the 
protection of park resources, and therefore on this basis, the FAA and 
the NPS have agreed to jointly determine environmental impacts. This is 
being done through the implementation plan and with a special FAA/NPS 
workgroup on significant noise impacts. The NPS and the FAA have set up 
various workgroups and subcommittees and plan to continue working 
collaboratively to address issues as they arise. In fact, the two 
agencies are also collaborating to address issues outside the scope of 
this hearing including potential impacts from airport expansions, the 
Grand Canyon legislation, and other sound-related issues.

                       STATUS OF TECHNICAL ISSUES

    Another result of the January 2004 meeting was a closer technical 
working relationship between the FAA and NPS, including the creation of 
a workgroup to evaluate decisions on technical matters. The 
methodologies and criteria that have traditionally been used to assess 
the impact of aircraft noise do not adequately address the effects on 
noise sensitive areas in national park units, where noise is very low 
and a quiet setting is a generally recognized purpose and attribute. 
Consequently, for air tour management plans, new methods are needed to 
measure and establish baseline sound levels and to assess potential 
impacts of air tour aircraft on national park units. The NPS Natural 
Sounds Program and the FAA, with the assistance of the Volpe Center, 
also have been working together to establish protocols, standards, and 
instrumentation for the collection of acoustic data in parks for the 
air tour management plan process.
    The NPS and the Volpe Center agree that the following acoustic data 
needs to be collected:

  <bullet> continuous, 1-second, one-third octave band (31 bands, 20-
        20,000 Hz, at a minimum) sound pressure level,
  <bullet> very low-noise level (to near 0 dB),
  <bullet> meteorological (wind speed and direction), and
  <bullet> sources of sound.

    Identification of sources of sound is needed to describe the park 
soundscape, and to identify and manage inappropriate noise sources. 
However, source identification is not yet available in all situations. 
Source identification is generally done through attended logging or 
playback of high-quality digital recordings, both of which are labor-
intensive. Automated processes for source identification will almost 
certainly be available some time in the future, but that process is not 
available at this time. However, a process for selecting measurement 
locations has been established and both agencies agree that a thorough 
understanding of acoustic variability (daily, seasonal, and annual), 
and the resulting knowledge of appropriate measurement periods, will 
not be available until long-term measurements are made. In order to 
start the air tour management planning process and begin the study of 
long-term variability, park-wide short-term studies will be initiated 
(primarily by the Volpe Center), and limited long-term studies will be 
initiated (primarily by the NPS). The NPS and the Volpe Center will 
continue to work cooperatively on data collection and analysis methods 
that can be used to characterize park soundscapes.
    There is agreement between the NPS, the FAA, and the Volpe Center 
regarding data collection, analysis, and reporting. While there is 
general agreement on acoustic data issues, issues remain on how the 
data is to be used to analyze potential impacts. One of the FAA and NPS 
workgroups was formed to review and make recommendations on 
determinations of significant and adverse noise impacts.

                     COST OF ANALYSIS AND SCHEDULE

    Through the contract mentioned earlier in the testimony, the Volpe 
Center is working to establish schedules and cost estimates for the 
ATMPs. Both agencies acknowledge the need for flexibility in scheduling 
ATMPs and have agreed to try to accommodate each park's peak visitor 
periods and staff capacity to the greatest extent possible. The initial 
schedule for EAs provided by the Volpe Center and the FAA was 
ultimately revised in order to give the two agencies time to resolve 
some over-arching issues. Tailoring the schedule has allowed us to 
develop a much more prudent and effective approach to the ATMP EA 
administration. The NPS will continue to work with the FAA and the 
Volpe Center to increase efficiencies by identifying practical 
geographic ``clusters'' of EAs that can be done together thus taking 
advantage of economies of scale and location.

                                FUNDING

    In the MOU, the NPS agreed to provide 40% of the cost of preparing 
the air tour management plans, subject to the availability of funding. 
Unlike the FAA, the NPS has had no line item budget for air tour 
management activities. Current funding for the NPS Natural Sound 
Program totals $918,000; this covers salary, travel, and basic expenses 
for a small, centralized staff that is assisting parks and NPS 
management with air tour management plans in addition to all other 
issues related to sound or the FAA in parks. Approximately 80%-85% of 
the entire Natural Sound Program budget is spent on the ATMP while the 
remaining 15%-20% is shared to cover all other program components 
including military overflights, park technical assistance requests, 
airport expansion issues, the Grand Canyon Alternative Dispute 
Resolution process, coordination of all other NPS sound issues, 
outreach, education, partnerships, and interpretive work.
    Based on the FAA's estimate of the cost of ATMP preparation, we 
estimate the NPS's share ranges from $2-4 million annually (depending 
on the number of parks). Our strategy for sharing the cost of preparing 
ATMPs includes tapping into entrance fee based accounts and other 
sources of project funding. Congress recently approved use of 20% fee 
demonstration funding for air tour management plan work in several low 
revenue parks. We continue to explore, with the FAA, ways to reduce 
costs including clustering parks for the environmental analysis. The 
schedule to date has reflected our mutual desire to be more efficient 
when dealing with several parks in a geographic area.

                      EFFECT ON AIR TOUR OPERATORS

    The effect of this legislation on existing air tour operators 
depends on the extent to which an operator's air tour business may have 
been constrained by the cap on air tour flights over units of the 
national park system. Because we have not been able to permit any 
flight increases above the legislated cap or new entrants, the effect 
on some operators has likely been greater than either agency would have 
preferred. The NPATMA requires that both the NPS and the FAA make 
certain findings before the cap on air tour flights can be increased 
and any new entrants are permitted. However, these findings cannot be 
made without better data from the operators, which the FAA is working 
to gather. Both the NPS and the FAA are working together on this issue.
    That concludes my remarks. Mr. Chairman, I would be happy to answer 
any questions you may have.

    Senator Thomas. Thank you very much. Appreciate it.
    Senator Akaka has arrived. Do you have a statement, sir?

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this timely hearing on the National Parks Air Tour 
Management Act of 2000.
    I know that you also have concerns about air tours over two 
of your magnificent national parks, Mr. Chairman, Yellowstone 
and Grand Teton National Parks. I look forward to working with 
you on this issue.
    I would like to extend my aloha to my longtime friend from 
the islands, Mr. Dave Chevalier, President of Blue Hawaiian 
Helicopters. He is a model 2 operator, tirelessly contributing 
in positive ways to the development of the law and voluntarily 
introducing quieter aircraft, among other activities. It is 
good to see you here, Dave. Good to see you again.
    Mr. Chairman, as you know, air tour management is an issue 
that has a long history in Congress, Hawaii and other parts of 
the Nation. The first congressional attempt to address the 
problem was in 1987, the National Parks Overflights Act, which 
required a report on the impact of overflights on national 
parks. In the 102d and 103d Congresses, Congresswoman Patsy 
Mink at that time, among others, sponsored legislation on air 
tour overflights. I sponsored legislation in the 105th and 
106th Congresses.
    Residents and visitors to national parks in Hawaii are 
vocal about the effects of air tours and the quality of 
experiences and wildlife in Hawaii's national parks.
    We had a series of devastating tour crashes in the early 
1990's that caused all of us to look more closely at the 
opportunity to manage the airspace over parks more wisely. I 
worked very hard with the Hawaii helicopter operators' 
Helicopter Association International, and Citizens Against 
Noise, among many groups to find a middle ground that would 
stem adverse effects on national parks and would not negatively 
affect air tour operators.
    In 1998, I joined forces with Senator John McCain and we 
included the National Parks Air Tour Management Act as title 8 
of the FAA Reauthorization Act. However, I am concerned that 
over 4 years have passed since the law was enacted and not one 
air tour management plan has been finalized.
    Hawaii's Volcanoes and Haleakala National Parks are at the 
top of the National Park Service's list for parks requiring air 
tour management plans, followed by Lake Mead National 
Recreational Area, and Mount Rushmore National Memorial. 
Haleakala National Park has over 26,000 overflights per year 
and 10 operators are flying tours. Hawaii Volcanoes has 24,500 
flights and 12 operators flying helicopters.
    Earlier this year, the FAA started the first 13 of a total 
of 107 plans that need to be completed. There is a lot of work 
still to be done.
    During the 4 years since the law was enacted, I have heard 
reports from a number of groups that the law was not being 
implemented in a timely manner, that there are not enough data 
to determine impacts, or that air tour operators were not 
cooperating. I have also received reports of very positive 
voluntary actions by air tour operators to address the concerns 
that have been raised by park visitors.
    I compliment each member of the national advisory group, 
the National Parks Overflights Advisory Group, for their 
dedication and hard work.
    I commend the Federal Aviation Administration and the Park 
Service for reaching important milestones promulgating 
regulations that define a commercial air tour operation and 
establishing an interim operating authority application process 
for operators. These are valuable steps. It is not easy to 
bring two agencies with disparate missions together to work on 
a common mandate.
    I hope the hearing today can shed light on some of the 
problems and provide insight on opportunities to improve the 
process of planning for air tour management over national 
parks, particularly if action should be needed from Congress.
    We have an excellent panel before us today. We have heard 
you already and look forward to hearing the testimony of other 
witnesses as well.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you, Senator. Glad that you are here.
    I think it is clear that one of the principal questions and 
reasons for being here is to talk about the schedule and the 
timing and why it has taken as long as it has. I guess let me 
ask you both. Is there a projected date for this process to be 
completed?
    Mr. Withycombe. Yes, sir, Mr. Chairman, I think I can speak 
to that to some degree.
    First of all, implementation of the legislation, which was 
enacted in 2000, was delayed, unfortunately, by the events 
surrounding 
9/11. The Department of Transportation and the FAA focused 
their attention on other rulemaking activities at that time. 
The regulation eventually was published and became effective in 
January 2003. That is roughly 17 months ago.
    During that time period, we worked extensively with the 
National Park Service on establishing some schedules and some 
activities that would bring the two agencies together. As 
pointed out by Senator Akaka, there are two separate missions 
here and in order to do that, we had to overcome a number of 
technical challenges and also mission assignments basically to 
establish how we would work together.
    This is a new program and new technical requirements and 
environmental issues needed to be resolved.
    We also needed to reach agreement on an acceptable 
environmental purpose and need. That was a major issue over 
which, as pointed out by my colleague, Paul Hoffman, we 
attended a January meeting that was very helpful to us in 
resolving some of those differences. I think it was a 
breakthrough for us in achieving new levels of cooperation and 
also working together to start the scoping process that needed 
to be done environmentally in the nine parks that we had 
targeted for completion.
    As far as the projected schedule goes, our best estimates--
and these are just estimates at this point in time--are that we 
need to overcome a couple of technical challenges, that is, 
basically what is ``significant impact'' and how do we measure 
noise. The two differences are what we are working on right now 
through not only NPOAG but also through our technical experts. 
We estimate that we could complete about 20 parks per year with 
the resources that we currently have and also that we would 
project our completion date, with roughly 100 parks, out about 
5 years. That is the best estimate that we have right now.
    Senator Thomas. So your first completion would be in how 
long then?
    Mr. Withycombe. The nine parks that we have targeted this 
year we estimate will be completed through the environmental 
process, establishment of ATMP, and also the rulemaking action 
that goes with that, in 2005, sometime in 2005 for those nine 
parks.
    Senator Thomas. A year from now.
    Mr. Secretary, any different view than that?
    Mr. Hoffman. No, no substantially different view. I liken 
it to building a house. The first thing you want is a good, 
solid foundation on which to build the rest of the house, and 
it took us a little while, but that is what we have been doing 
over the last 18 months, is developing that solid foundation on 
which we build the rest of these plans. We are going to stay 
committed to the process and start chunking them out as well as 
we can, given the resources we have, and both human and 
financial resources available.
    Senator Thomas. I presume that you have some good general 
criteria that apply everywhere and then specifically to each 
park as it is applied there. Is that generally right?
    Mr. Hoffman. Right. We have been reaching agreement on some 
of the core principles, as you say, that would apply to any 
park, but then you also have a different set of facts, almost a 
unique circumstance under which you measure sound and the 
impacts that differs from each park. So there is some 
complicated analysis that is required for each different park 
and some measurements that need to be taken to establish 
baselines as well before we can really do a thorough and 
defensible analysis of those impacts.
    Senator Thomas. So you are suggesting that out of the 388 
parks, there are 107 of them that will be interested in having 
overflights. Is that it?
    Mr. Hoffman. I believe there are 107 that have overflight 
operations.
    Mr. Withycombe. Yes. The application process is essentially 
giving initial operating authority to the current operators who 
have air tours based upon their number of flights that they had 
prior to the act. Those indicate that we have roughly 107 parks 
that they are operating in now based upon those applications.
    I might add that we are going back to verify those 
applications again to make sure that we have good numbers from 
the operators. That is part of the NPOAG recommendation that 
was given to us. We are going back to work through them to 
establish a method to do that, and also to work with the Park 
Service in this effort as well.
    Senator Thomas. If it takes about a year to do nine, then 
it is going to take you 10 or 12 years to do them all. Is that 
correct?
    Mr. Withycombe. The best estimate that we could give, as I 
mentioned before, is about 20 parks per year, given the 
resources and the ability to do this in a timely way. If there 
are 100 parks remaining, that would be about 5 years.
    Senator Thomas. It seemed that once you had set the 
criteria, that the determination of applicability to each park 
would be relatively easier and that you all would not have to 
be involved in every one. The parks can kind of make their own 
judgment based on your criteria, can they not?
    You talk about 11 September, but nevertheless this is 4 
years, and by the time you are through, it is going to be 15 
years before this is done. That seems like a pretty incredible 
length of time to do something, does it not?
    Mr. Withycombe. You make a good point, Mr. Chairman. 
Obviously, we would like to do as many of these as we possibly 
could. We are studying ways in which we could possibly group 
these under one environmental study. That is not out of reason. 
We are obviously looking at ways in which we could do this more 
efficiently as well. But it is an environmental process done 
under the national standards for environmental reviews, and 
those do take time to complete and report. They then become 
part of a rulemaking action, which the FAA intends to enforce, 
to establish routes and altitudes in these national parks.
    Senator Thomas. I am sure it is tougher than it seems, but 
it looks like if you can determine what a 5,000 foot elevation 
does, it does the same thing in several parks. It does not seem 
like it is a whole, brand new experiment every time you go into 
it, is it?
    Mr. Hoffman. Well, actually you would be surprised at how 
disparate the analysis can be, depending on the topography of 
the park, or the size of the park, or the type of aircraft that 
are flying. There are certain standards that you can apply to 
every one of these ATMP's, and then there is site-specific 
analysis that is necessary. Of course, the act requires FAA to 
be involved. So I do not believe FAA can just sort of hand it 
off to us.
    I have to say that the resources to do these ATMP's even on 
the schedule the FAA is suggesting is going to be challenging 
for us to find.
    Senator Thomas. Does the Park Service have their 40 percent 
now?
    Mr. Hoffman. We are finding the 40 percent through rec fee 
moneys. In those parks that have fees, out of the 80 percent 
funds; in those parks that do not have fees, out of the 20 
percent fund.
    Senator Thomas. Why would you want air traffic over Mount 
Rushmore? There are some places where you are not going to fly, 
are there not?
    Mr. Hoffman. Well, there have been small helicopter tours 
and I suppose fixed wing tours over Mount Rushmore for a number 
of years, and visitors like seeing----
    Senator Thomas. They like seeing the back of their heads.
    Mr. Hoffman. Yes.
    [Laughter.]
    Senator Thomas. Senator.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Withycombe, as you noted in your testimony, by enacting 
the Air Tour Management Act Congress intended to mitigate or 
prevent significant adverse impacts to park resources from air 
tour operations.
    We hear many things. One of the concerns I have heard is 
that in implementing this act, the FAA is focused on airspace 
management issues instead of addressing the potential impacts 
on park resources.
    How do you respond to that concern and what action is the 
FAA taking to ensure that the congressional intent behind this 
act is met?
    Mr. Withycombe. Senator Akaka, our mission basically is to 
ensure safety of the air tour operations over the national 
parks in this particular legislation. Aviation safety is our 
mission throughout the FAA. We are focused in this particular 
instance on ensuring the safety of operations for those people 
that are using air tours to see the national parks.
    We also are looking, of course, at the environmental impact 
of those operations. As part of our plan, we are doing the 
required environmental analyses that are part of those studies. 
We intend to make a thorough study of each of these parks 
through noise analysis, through safety analysis, and the 
establishment of safe air tour routes over and around the 
National Park System. So we are concerned with both safety and 
the environment in this particular case.
    Senator Akaka. Mr. Withycombe, my second question involves 
the Kalaupapa site in Hawaii. As you know, Kalaupapa is not 
only a national historical park but also a very sensitive 
cultural site. I have heard from the residents of Kalaupapa 
that they oppose commercial air tours over the settlement. 
Kalaupapa is currently one of the initial park sites that is 
being studied by your agency.
    What can I tell the residents to reassure them that FAA 
will be sensitive to their concerns during the planning and 
decision-making process?
    Mr. Withycombe. Senator, we have just recently completed a 
number of focus meetings with Kapuna groups. We met also with 
the patient community in Kalaupapa. We also have heard the 
concerns they have voiced to us during those hearings. Those 
will all be considered as part of our environmental impact 
study, and we will be careful about whatever process takes 
place there.
    We have a range of options under that process, based upon 
the impact that the community senses and reports to us. We also 
take comments from the air tour operators and the general 
public that may surround the park itself. Our goal is to find 
some middle ground or exercise whatever option we need to do 
based upon the input that we get. Hopefully that input will 
provide some reasonable answer to the concerns that have been 
raised.
    Senator Akaka. Mr. Hoffman, I would like to ask how 
national park resource impacts are to be analyzed and measured 
as part of the environmental assessments. I understand that one 
of the reasons for the delay in implementing this act is the 
difficulty of defining what constitutes a significant adverse 
impact.
    My question is, have both agencies come to agreement on 
what constitutes a significant adverse impact, and how is it 
defined and how do you know when it has occurred?
    Mr. Hoffman. Well, Senator, you have hit on the key 
challenge to managing any national park unit in terms of 
determining when is an impact an impairment or when is an 
impact just an impact.
    We have reached agreement that the standard that the FAA is 
required under the law to use as significant adverse impact. In 
the National Park Service, we use the standard of impairment, 
where impacts may occur so long as they do not rise to the 
level of impairing the resources and impeding the enjoyment of 
those resources by future generations.
    We are working closely with the FAA on managing issues that 
may arise to less than significant impacts. For instance, in 
some parks, larger parks or a cultural park like Kalaupapa, 
where natural quiet is an expectation, we may want to manage to 
a finer threshold, if you will, of allowing impacts on those 
kinds of parks versus other parks where there is less 
expectation on the part of the visitor or less impact on the 
resource as a result of those sounds.
    So it is a park-to-park analysis. It is resource-to-
resource. It is a cultural resource-to-cultural resource 
analysis that needs to take place, and each plan will be an 
independent decision.
    Senator Akaka. Mr. Hoffman, under the Air Tour Management 
Act, the Park Service is the cooperating agency to the FAA 
which has the lead role in developing air tour plans. However, 
the Park Service's Organic Act mandates the service to manage 
natural and cultural resources so that they are unimpaired for 
the enjoyment of future generations. That is a quote. Does the 
Park Service, with cooperative agency status, have sufficient 
legal authority to make a determination whether there are 
significant adverse effects?
    Mr. Hoffman. Well, sir, the act designates the FAA as the 
lead organization in the NEPA analysis, and we have deferred to 
them on the funding side of it. But on the impact analysis, we 
have agreed that we will work cooperatively even though the act 
specifies the FAA as the lead agency and the Park Service as a 
cooperating agency, which is a role we play quite often in 
other NEPA analyses, and we believe we have played that role 
and quite successfully protected resources from being impaired 
in that role. But in this particular case where both agencies 
have to sign off on any NEPA document that is produced, we have 
agreed in principle that we will work cooperatively in the 
determination and mitigation of any impacts.
    Senator Akaka. Let me give Mr. Withycombe a chance to 
reply.
    Mr. Withycombe. Senator, I would agree with the statement 
that Mr. Hoffman just made. We have required as part of our 
plan, and also part of the legislation that was passed through 
Congress, that both agencies would sign the environmental 
documents. This means that a cooperative arrangement has to be 
in place between the two agencies to reach agreement to settle 
on the environmental impact of that particular park.
    I might also add that we are working together cooperatively 
to better define what significant impact actually is. We 
obviously have technical issues that we have to work through in 
that arena and we are in the midst of the environmental process 
in those nine parks. That is an important piece which we will 
have to finish in order to complete those first nine parks. 
This will then lead into the other parks that we have to do 
throughout the country.
    Senator Akaka. Thank you for your responses.
    Thank you, Mr. Chairman.
    Senator Thomas. Welcome, Senator Alexander.
    Senator Alexander. Thank you very much.
    Senator Thomas. Do you have any statement or questions at 
this point?
    Senator Alexander. Excuse me for being late. I had to 
preside which goes to junior Members of the U.S. Senate. So 
that is how I was picked for that honor.
    Is this the first panel?
    Senator Thomas. The first panel. We are going right away to 
the second panel.
    Senator Alexander. If I may ask one question and make a 
short statement.
    Senator Thomas. Certainly.
    Senator Alexander. I am extremely interested in the idea of 
helicopters in the Great Smoky Mountains. That has been hotly 
debated in the State of Tennessee. We have often talked in this 
committee about the differences between the East and the West, 
and one difference is we do not have that much Federal land in 
the East and in the West the Federal Government owns a 
disproportionate amount. Also, we have lots of travel in the 
East. The Smokies, as an example, has 9 million or 10 million 
visitors a year. Yellowstone might have 3 million or something 
like that, if I remember, primarily because we are just in the 
middle of a lot of people.
    Smokies is also managed as if it were a wilderness area. 
There is only one road through it. Most everyone within our 
region likes that. We have plenty of commercial activity 
outside the area but not inside. So the prevailing view in our 
State is that we like the idea of having, in the midst of all 
our commerce, 500,000 acres that is, as free as possible, of 
commerce and noise, and we prefer peace and tranquility. That 
is why in 1992 our State legislature passed a law outlawing the 
siting of heliports within the 9 miles of the Great Smoky 
Mountain National Park. Their hope was that that would 
discourage flying over the Smokies. That has been upheld.
    I am informed there are two heliports today doing 
helicopter tours of the Smokies. They are located more than 9 
miles away from the Great Smokies. So I assume that would 
comply with the State law. But I wonder if those two heliports 
are complying with the National Parks Air Tour Management Act 
of 2000. Are they in compliance with the Federal law? Have they 
filed the appropriate application forms and followed the 
procedures? What can either of you gentlemen tell me about 
those two heliports?
    Mr. Withycombe. Well, sir, I would definitely have to get 
back to you on that particular issue. I am not sure exactly 
what kind of operation we have there. I would have to consult 
our experts that have reviewed those applications and verify 
whether or not those operators are in compliance with our 
regulations and our requirements for certification.
    Our intent obviously in the Great Smoky Mountain area would 
be the same as we do for any other national park where we have 
operators who wish to operate there. That process would be a 
complete review of their plans, taking a look at their 
applications and making sure that they are, in fact, operating 
within a half a mile of the national park. If that is the case, 
that would start an air tour management plan process, which we 
would then environmentally study, in consultation with the 
National Park Service. We would definitely look at the impact 
of those operations. That environmental process would provide 
us with public input. Anybody that had an interest in this 
operational application would be able to comment and provide us 
their concerns. Those concerns would be taken into account, and 
as I mentioned to Senator Akaka, we would look at a full range 
of options that we have, all the way from no operations over 
the national park to setting up specific routes that reduce the 
impact below significant or maybe even less than that.
    Senator Alexander. Mr. Hoffman, do you know whether those 
two heliports are in compliance with the Act of 2000?
    Mr. Hoffman. I do not know about those two specific 
heliports, but the act does provide for interim operating 
authority for those operations that were in operation at the 
time the act was passed, and those authorities extend until 
such time as there is an air tour management plan and 
associated regulation in place. So if they were operating at 
the time of the act and if they filed with the FAA for interim 
operating authority, then they are operating under the Act. But 
I do not know the specific fact base around that.
    Senator Alexander. Well, I will not ask you to repeat what 
you have already said. What I would like to ask is that each of 
you let the subcommittee know and me know whether at this time 
the heliports operating in the area of the Great Smoky 
Mountains are in compliance with the terms of the Act of 2000. 
That would be the first thing.
    And then second, I look forward, Mr. Chairman, to hearing 
the remaining discussions and comments. I will certainly listen 
to arguments that are made. But my strong bias and I believe 
the strong bias--and I say this not only as the U.S. Senator 
from Tennessee, but as a resident of Tennessee who lives within 
2 miles of the Great Smoky Mountain National Park. The strong 
bias of most people in the area is that the park itself ought 
to be preserved. It is generally managed as if it were a 
wilderness area and that is dramatically disturbed by the noise 
of helicopters. So that is my bias. I want to listen to the 
testimony today, and I look forward to keeping up with your 
efforts to implement the act and I am grateful to the chairman 
for calling this hearing.
    Mr. Withycombe. Mr. Chairman, if I may just add a comment 
to this. Senator, my colleagues here tell me that we have 
received applications for operations over the Smoky Mountains 
National Park. There are probably the two operations that you 
referred to. It is really the operators that must come into 
compliance rather than the heliports themselves, and as pointed 
out by Paul Hoffman representing the National Park Service 
here, we basically have what we call an initial operating 
authority process which once they apply to us, if they have 
flown over that park before, they are automatically given 
authority to continue that operation until we look at the air 
tour management plan process.
    Senator Alexander. Thank you. I appreciate the 
clarification. I would still appreciate if you could just send 
me a letter letting me know the status then of the operators, 
if it is the operation to which the act applies rather than the 
heliports.
    Mr. Withycombe. We will do that, Senator.
    [The letter follows:]
                      Department of Transportation,
                           Federal Aviation Administration,
                                   Washington, DC, August 11, 2004.
Hon. Lamar Alexander,
U.S. Senate, Washington, DC.

Re: Commercial Air Tour Operations at Great Smoky Mountains National 
Park

    Dear Senator Alexander: This letter is in response to your request 
for additional information during the July 22, 2004 hearing on 
implementation of the National Parks Air Tour Management Act of 2000 
(Act), before the Senate Committee on Energy and Natural Resources, 
Subcommittee on National Parks. I testified on behalf of the Federal 
Aviation Administration (FAA) about our work with the National Park 
Service to implement the Act. During the hearing, you requested that we 
provide information on an issue raised by another witness, Mr. Charles 
Maynard, regarding two air tour operators that were allegedly in 
violation of the Act by conducting commercial air tour operations over 
the Great Smoky Mountains National Park (Park) without FAA operating 
authority.
    We have looked into the matter and have found that there are two 
existing operators conducting commercial air tours over the Park. Great 
Smoky Mountain Helicopter, Inc.--doing business as Smoky Mountain 
Helicopters--has been authorized 120 annual air tour operations by the 
FAA for the Park, and Rambo Helicopter Charter, Inc.--doing business as 
Scenic Helicopter Tours--has been authorized 1800 annual air tour 
operations by the FAA for the park.
    The statement at the hearing that there were two additional 
operators at the Park turns out to be incorrect. The apparent 
confusion, we believe, can be attributed to the fact that the two 
operators conduct their business under different names than their 
corporate names. We have confirmed this finding with Mr. Charles 
Maynard and with the National Park Service. Additionally, you had 
inquired whether the location of a heliport has any bearing on whether 
or not the operators comply with the Act. Under the provisions of the 
Act, it does not.
    I hope this information is helpful to you and your staff. If you 
have further questions or require additional information, please 
contact David Balloff of the FAA's Office of Government and Industry 
Affairs at 202-267-3277.
            Sincerely,
                                     William C. Withycombe,
             Regional Administrator for the Western-Pacific Region.

    Senator Alexander. Thank you.
    Senator Thomas. I think, Senator, as we have talked about 
before, you are asking about compliance. The requirements are 
not set yet for compliance. They are allowed to go as they 
were, but they have not yet designed what they have to comply 
with.
    One very quick one, Paul. There are current users. There 
are current people making flights.
    Mr. Hoffman. Yes.
    Senator Thomas. Do they pay something into the park for 
doing this?
    Mr. Hoffman. There are certainly certain parks where they 
pay a fee, but there is no authority for the parks to pursue 
the collection of that fee. It is more or less a voluntary fee 
that is paid.
    Senator Thomas. It would be a good way to get your $20 
million.
    In any event, all right, thank you. Let us go on to our 
next set of panelists. Thank you, gentlemen. Appreciate it.
    Next, we have Mr. Roy Resavage, president, Helicopter 
Association International, Alexandria, Virginia; Mr. Charles 
Maynard, former director, Friends of the Smokies, Jonesboro, 
Tennessee; Mr. David Chevalier, owner, Blue Hawaiian 
Helicopters, in a town in Hawaii which I cannot pronounce; and 
Mr. Don Barger, senior director, Southeast District, National 
Parks and Conservation Association, Knoxville, Tennessee. Thank 
you, gentlemen, for being here.
    Your total statements will go in the record. If you could 
hold your comments to 5 minutes, we would appreciate that very 
much. We would like to start with you, Mr. Resavage.

 STATEMENT OF ROY RESAVAGE, PRESIDENT, HELICOPTER ASSOCIATION 
                 INTERNATIONAL, ALEXANDRIA, VA

    Mr. Resavage. Good afternoon, Mr. Chairman and Ranking 
Member Akaka, and Senator Alexander. My name is Roy Resavage. I 
am president of the Helicopter Association International.
    HAI fully supports the ATMP process and we believe that 
great strides have been made since this project commenced many 
years ago. However, all the major stakeholders are disappointed 
in the rate of progress to date and few are optimistic about 
the prospect of an accelerated schedule in the future.
    The air tour experience has become a highlight for many 
visitors to our national parks. HAI members fly the vast 
majority of helicopter tours over national parks, and we have a 
vested interest in providing a memorable, safe experience for 
our customers. Air tours are arguably one of the most 
environmentally friendly ways to view the wonders of our 
national parks. They are not just a passing fad. HAI 
acknowledges that we share these magnificent natural treasures 
with the local residents, Native Americans, visitors who prefer 
to view the experience from buses, trains, cars, rafts, hiking 
trails, as well as the animals that inhabit the parks.
    The National Park Overflight Working Group was created as a 
mediating tool to bring these diverse interest groups, the 
Federal Aviation Agency, and the National Park Service to the 
bargaining table. This was not an easy process and the initial 
meetings were notable for their lack of civility as all 
advocates zealously pursued their own myopic points of view. It 
took a great deal of courage and patience in the early stages, 
but consensus was eventually reached on most items that 
appeared so inflammatory at the beginning of the process. 
Implementation of ATMP's was predicted to be close at hand. No 
one felt that they ahead achieved all their goals, which is 
probably a good indicator that tough compromises were achieved.
    HAI and its members were part of the National Parks 
Overflights Advisory Group process from the very beginning and 
we still are very involved today. Everything seemed to be on 
track for the implementation of the ATMP, but many things went 
terribly wrong. The heated debates between the traditional 
adversaries gave way to a morass between the two major 
agencies, the FAA and the National Park Service. Incredible 
delays developed over definitional terms, which would be the 
lead agency, who would have the final veto authority, who was 
going to pay the bills. These were not trivial issues to the 
agencies involved, and the clock kept ticking while 
wordsmithing and legal maneuvering took place.
    All of these delays have had a chilling effect on the 
expansion of responsible air tour operations. The initial goal 
was to complete the ATMP's for the national parks in 2 years. 
Why did this not happen? It could be argued that the bar was 
just set too high and that completion of such an enormous 
project in 2 years was an extremely naive undertaking. In fact, 
the expectations far exceeded capabilities. However, a great 
deal of the delay has been self-induced.
    Delays on where the first ATMP would be beta tested, 
decisions on how sound was to be measured, where to place the 
microphones, what constitutes unacceptable noise and to whom 
still remain unanswered questions.
    How many parks require an ATMP? The number keeps growing 
and is a moving target. The cost of the envisioned studies 
could easily exceed $1 million per park. With over 100 parks, 
where will the money come from? How long will it take to 
accomplish the ATMP process for each park? To our knowledge, 
the Park Service still has not obligated their original 
budgetary requirements.
    Air tour operators remain in limbo as this endless parade 
of irresolvable challenges block the path of progress. Parks 
that are not currently supporting air tours are off limits. 
Quotas have been arbitrarily set at an unjustifiably low level. 
Until recently there was no official guidance as to how an 
operator could obtain interim operating authority. New operator 
entry is virtually impossible to obtain without acquiring the 
certificate of an existing operator.
    HAI and its members believe that moving forward with the 
ATMP process is in everyone's interest. The current situation 
is anti-competitive at best and would be the subject of ethical 
scrutiny if under the control of private enterprise.
    HAI respectfully requests that Congress intervene in the 
situation and require the respective agencies to honor their 
charter, fund them as necessary, and offer incentives for 
solutions that address what really needs to be done to protect 
the public's interest. Perhaps it is time to review the current 
process, abandon some bad science assumptions, and look to 
appropriate computer modeling and give credit for quiet 
technology advancements.
    Most of the air tour operators are small businessmen and 
women already governed by a mountain of regulatory guidance. 
They want to do the right thing but they are forced to remain 
on the sidelines while the two major Titans engage in combat 
over who will reign supreme. It is time to move forward and 
give the parks back to the people.
    Thank you very much for my time and I will be happy to 
answer any questions at the appropriate time.
    [The prepared statement of Mr. Resavage follows:]

            Prepared Statement of Roy Resavage, President, 
                  Helicopter Association International

    Good afternoon, Chairman Thomas, Ranking Member Akaka, and Members 
of the Subcommittee. My name is Roy Resavage, and I am President of The 
Helicopter Association International (HAI). It is an honor for me to 
appear before the Senate National Parks Subcommittee today to discuss 
helicopter air tour industry concerns over the air tour management plan 
(ATMP) process. I respectfully request that my remarks be included in 
the official committee record.
    HAI fully supports the ATMP process, and we believe that great 
strides have been made since this project commenced many years ago. 
However, all of the major stakeholders must be disappointed in the rate 
of progress to date, and few are optimistic about the prospect of a 
significantly accelerated schedule in the future.
    The air tour experience has become a highlight for many visitors to 
our National Parks, including the Grand Canyon. HAI members fly the 
vast majority of helicopter tours over national parks. We have a vested 
interest in providing a memorable, safe experience for our customers. 
Air tours are arguably one of the most environmentally friendly ways to 
view the wonders of our national parks, they are not just a passing 
fad, and we want to work in harmony with the other important 
stakeholders. HAI acknowledges that we share these magnificent natural 
treasures with the local residents, Native Americans, visitors who 
prefer to view the experience from buses, trains, cars, rafts and 
hiking trails, as well as the animals that inhabit the parks.
    The National Parks Oversight Advisory Group (NPOAG) was created as 
a mediating tool to bring these diverse interest groups, the Federal 
Aviation Agency (FAA) and the National Park Service (NPS) to the 
bargaining table. This was not an easy process and the initial meetings 
were notable for their lack of civility as all advocates zealously 
pursued their own myopic points of view. It took a great deal of 
courage and patience in the early stages, but consensus was eventually 
reached on most items that appeared so inflammatory in the beginning. 
An ATMP was created and its implementation was predicted to be close at 
hand. No one felt that they had achieved all of their goals, which is 
probably a good indicator that tough compromises were achieved.
    HAI and its members were part of this NPOAG process from the very 
beginning and today a former Chairman of the HAI Board of Directors, 
Elling Halvorson, carries on that tradition. Everything seemed to be on 
track for the implementation of the ATMP, but many things went terribly 
wrong. The heated debates between the traditional adversaries gave way 
to a morass between the two major agencies the FAA and the NPS. 
Incredible delays developed over definitional terms, who the lead 
agency was, who had final veto authority and who was going to pay the 
bill. These were not trivial issues to the agencies involved, and the 
clock kept ticking while wordsmithing and legal maneuvering took place.
    All of these delays have had a chilling effect on the expansion of 
responsible air tour operations. The initial goal was to complete ATMPS 
for the national parks in two years. Why didn't this happen? It could 
be argued that the bar was set too high, and completion of such an 
enormous project in two years was an extremely naive undertaking. That 
probably does explain some of the delay; expectations exceeded 
capabilities. However, a great deal of the delay has been self-induced. 
Delays on where the first ATMP would be beta tested added unneeded time 
to the process. Decisions on how sound was to be measured, where to 
place the microphones, what constitutes unacceptable noise and to whom, 
remain unanswered questions. How many parks require an ATMP, the number 
keeps growing and is a moving target. The cost of the envisioned 
studies could easily exceed $1,000,000 per park. With over a 100 parks, 
where will the money come from? How long will it take to accomplish the 
ATMP process for each park? To our knowledge, the Park Service has not 
obligated their original budgetary requirements. The published 
shortfall in the future Park Service budget, allowing only for the 
maintenance of safe and healthy parks, is the topic of media 
speculation on a daily basis.
    Air tour operators remain in limbo as this endless parade of 
unsolvable challenges block the path of progress. Parks that are not 
currently supporting air tours are off limits; Quotas have been 
arbitrarily set at unjustly low levels. Until recently there was no 
official guidance as to how an operator could obtain interim operating 
authority. New operator entry is virtually impossible to obtain without 
acquiring the certificate of an existing operator.
    HAI and its members believe that moving forward with the ATMP 
process is in everyone's interest. The current situation is anti-
competitive at best, and would be the subject of ethical scrutiny if it 
were under the control of private enterprise. HAI respectfully requests 
that Congress intervene in this situation and require the respective 
agencies to honor their charter, fund them as necessary, and offer 
incentives for solutions that address what really needs to be done to 
protect the public's interest. Perhaps it's time to review the current 
process, abandon bad science assumptions regarding noise propagation, 
and avoid the expensive of millions of dollars and months of data 
gathering and look to appropriate computer modeling.
    Most of the air tour operators are small businessmen and women who 
are already governed by a mountain of regulatory guidance. They want to 
do the right thing, but they are forced to remain on the sidelines 
while the two major Titans engage in combat over who will reign 
supreme. It's time to move forward and give the parks back to the 
people.

    Senator Thomas. Thank you very much.
    Mr. Chevalier.

      STATEMENT OF DAVID J. CHEVALIER, CEO, BLUE HAWAIIAN 
                    HELICOPTERS, KAHULUI, HI

    Mr. Chevalier. Good afternoon, Chairman Thomas, Ranking 
Member Akaka, aloha. Senator Alexander. My name is David 
Chevalier. I am the CEO of Blue Hawaiian Helicopters.
    I was a member of the original National Park Overflight 
Working Group which reached the consensus upon which this law 
was based. It was a difficult process to reach consensus 
between aviation and the environmental groups, as we seem to 
hold diametrically opposing interests. I do not believe we 
would have been able to reach these agreements had it not been 
without a professional moderator's help.
    I believe the same situation now exists between the FAA and 
the National Park Service. It appears to me the process is 
broken or at least slow as molasses. I think that an 
independent professional moderator should oversee and 
facilitate action between these two very different 
bureaucracies.
    While the National Park Advisory Group is a very valuable 
consulting resource on the civil side in this process, it does 
not drive the boat. The FAA and the National Park Service 
should be given a firm time line for completion of tasks, and a 
professional moderator between the FAA and National Park 
Service decisionmakers should be immediately utilized whenever 
an impasse is reached.
    While the aviation representatives argued against 
restrictions as to the manner in which Americans choose to view 
their parks, we ultimately compromised in an agreement that the 
number of flights would be frozen until the interim management 
plan process was complete. This you wrote into law. While I 
personally disagree with these interim restrictions and would 
vote to change that law, it is imperative that the established 
law be followed. There was always concern by the NPOWG over the 
enforcement of this law.
    Hawaii was chosen as a place to begin the process because 
of a voluntary and successful air tour management plan that was 
already in place at Haleakala and to a lesser extent at 
Volcanoes. When the law came in place, operators received a 
questionnaire. We were asked the number of flights that we had 
conducted over a specified time period to figure out exactly 
how many we would be allowed to do through the interim process 
until the interim management plans were complete.
    Well, as far as I know, no air tour company yet to date has 
been audited to assure the accuracy of those numbers given. It 
would have been an easy task to verify the numbers of 
overflights by the $25 per overflight fee payment history for 
Volcanoes National Park. It became evident that a number of air 
tour companies are not paying any overflight fees, as I believe 
is required by law. But apparently there certainly is no 
mechanism in the law to collect these fees. As it stands now, 
this law does not have any teeth. Air tour companies should be 
audited to prove the number of overflight slots claimed, as 
well as show proof of payment of those flights. I would suggest 
you either enforce that law or change it.
    A different standard exists for air tour visitors than 
ground visitors at most of our Nation's national parks. While 
we must not lose sight of the legitimacy of air tour visitors 
to view the park from the air, neither should we lose sight of 
their responsibility to pay an equal entry fee as ground based 
visitors do.
    As this is an airspace issue, the FAA is the rightful lead 
agency and the NPS the cooperating agency in the development of 
the plans. However, considering the interests of the two 
bureaucracies, I think the NPS must be the watchdog of any air 
tour management plan.
    As a fill-in at the last advisory group meeting at Lake 
Mead, I had suggested that each tour aircraft be required to 
carry a transponder which would broadcast its own discrete code 
and that this would be recorded automatically on a ground-based 
NPS computer. The computer would then track in real time the 
location of each aircraft within the specified boundaries of 
the park. Routes and overflight counts could be recorded 
automatically. This is an objective management tool that is 
widely employed now by trucking companies. Similarly, the FAA 
has been moving toward ADSB technology in the lower 48 States. 
Implement flight tracking and enforcement of any plan is 
substantially complete. NPS forwards an unexplained deviation 
of an ATMP to the FAA. The FAA then investigates and takes 
appropriate action where necessary. I think, though, more often 
than not, that this is going to absolve air tour operators of 
accusations of noncompliance by citizens.
    Technology is also available whereby overflight billings 
could go out automatically and this in conjunction with this 
tracking system. I think that overflight fees should go first 
to pay for the tracking equipment and second to the general 
fund of the park.
    It must be recognized that air tour operations in many 
areas of the country have made significant voluntary efforts to 
minimize noise impacts to ground visitors at national parks. 
Nevertheless, we can do better by adopting quiet technology 
aircraft. Although there are incentives mandated by this law to 
adopt quiet technology, there is a problem. As yet, there is no 
established guideline for what constitutes a quiet technology 
aircraft. The advisory group has recently been given the 
assignment of recommending these guidelines. I question their 
technical ability to be able to do this without the help of an 
expert group such as Volpe. In any case, I think these 
guidelines should have been established a long time ago and it 
needs to happen very soon.
    Quiet technology will not only help reduce noise impacts at 
national parks but over the neighborhoods that we must traverse 
as well. Until these two agencies complete their responsibility 
to establish guidelines, there is no incentive for any company 
to make a large investment in aircraft that might not meet the 
definition. Operators need assurance of which aircraft will be 
acceptable for the incentives mandated by this law. It takes 
substantial time to plan for these kind of major acquisitions. 
So all I ask is please set a deadline for the definition of 
quiet technology aircraft.
    Thanks for listening.
    [The prepared statement of Mr. Chevalier follows:]

     Prepared Statement of David J. Chevalier, CEO, Blue Hawaiian 
                              Helicopters

    Good afternoon, Chairman Thomas, Ranking Member Akaka, and Members 
of the Subcommittee. My name is David Chevalier, and I am the CEO of 
Blue Hawaiian Helicopters. I was a member of the National Park 
Overflight Working Group (NPOWG), which reached a landmark consensus 
agreement between environmental, Native American and aviation interests 
and upon which Public Law 106-181 is based. Many times, over many hours 
of debate, one side or the other was ready to walk out and call the 
exercise a failure.
    It was a difficult process to reach consensus between the aviation 
and environmental groups as we seemed to hold diametrically opposing 
interests. I don't believe that we would have been able to reach the 
agreements that we did without a professional moderator. I believe the 
same situation exists now between the FAA and the NPS. It appears to me 
that the process is broken. I believe that an independent, professional 
moderator should oversee and facilitate action between these two very 
different bureaucracies.
    While the NPOAG is a valuable consulting resource in this process, 
it does not drive the boat. The FAA and the NPS should be given a firm 
timeline for completion of tasks, and a professional moderator between 
the FAA and NPS decision makers should be immediately utilized when an 
impasse is reached.
    Although the NPOWG came from opposing positions, we arrived at a 
consensus that air tour passengers are legitimate visitors to the 
National Parks and that the impacts of both ground visitors as well as 
air tours on this resource must be mitigated.
    One of the most contentious issues that we faced was the limitation 
on the number of National Park overflights. While the aviation 
representatives argued against restrictions as to the manner in which 
Americans choose to view their parks, we ultimately compromised on an 
agreement that the number of flights would be frozen until the Air Tour 
Management Plan (ATMP) process was complete. This became incorporated 
into the law.
    While I still disagree with these interim restrictions and would 
vote to change the law, it is imperative that the established law be 
followed. There was always a concern by the NPOWG over the method of 
enforcing this law. Hawaii was chosen as the place to begin this 
process because a voluntary and successful air tour management plan was 
already in place at Haleakala National Park. Operators received a 
questionnaire as to the number of flights that had been conducted over 
the National Parks in a specified time period prior to implementation 
of this law. This was to assist the FAA in establishing the number of 
flights that would be allowed until the ATMP process is complete 
(Interim Operating Authority).
    No air tour company has yet been audited to assure the accuracy of 
those numbers. It would have been a simple task to verify the number of 
overflights by the $25/overflight payment history for Volcanoes 
National Park. It has become evident that a number of air tour 
companies are not paying any overflight fees as is required by law. No 
mechanism in the law exists to collect these fees. As it now stands, 
that law has no teeth. Air Tour companies should be audited to prove 
the number of overflight slots claimed, as well as to show proof of 
payment for those flights. Change the law or enforce it.
    A different standard exists for air tour visitors than ground 
visitors at most of our nations' national parks. One must not lose 
sight of the legitimacy of air tour visitors to the park or their 
responsibility to pay the same fees as are required of ground based 
visitors.
    As this is an airspace issue, the FAA is the rightful lead agency, 
and the NPS the cooperating agency in the development of the ATMP's. 
However, considering the interests of the two bureaucracies, the NPS 
must be the watchdog of any ATMP. As a fill-in at the last NPOAG 
meeting at Lake Meade, I suggested that each tour aircraft be required 
to carry a transponder which would broadcast its' own discrete code and 
that this would be recorded automatically on a ground-based NPS 
computer. The computer would then track, in real time, the location of 
each aircraft within the specified boundaries of the National Park. 
Routes and overflight counts could be recorded automatically. This is 
an objective management tool which is widely employed by trucking 
companies. Similarly, the FAA is already moving toward ADSB technology 
in the lower 48 states. Implement flight tracking, and enforcement of 
any plan is substantially complete. NPS then forwards any unexplained 
deviation of an ATMP to the FAA, the FAA then investigates, and 
appropriate enforcement action is taken.
    More often than not, I believe that this will absolve air tour 
operators from false allegations of non-compliance by citizens. 
Technology is available whereby overflight fee billings could go out 
automatically. I believe that the overflight fees should go first to 
pay for the tracking equipment and second to the general fund of the 
park.
    It must be recognized that air tour operators in many areas of the 
country have made significant, voluntary efforts to minimize noise 
impacts to ground visitors at National Parks. Nevertheless, we can do 
better by adopting quiet technology aircraft. Although there are 
incentives mandated by this law to adopt quiet technology, there are 
problems. As yet there is no established guideline for a definition of 
a ``quiet technology aircraft''. The NPOAG has recently been given the 
assignment of recommending these guidelines. I question their technical 
ability to do this without professional help from an expert group, such 
as Volpe. In any case, these guidelines should have been established 
shortly after incentives were mandated.
    Quiet Technology aircraft will not only help reduce noise impacts 
at the National Parks, but over the neighborhoods we must often 
traverse as well. Until these two agencies complete their 
responsibility to establish such guidelines, there is no incentive for 
any company to make large investments in aircraft that might not meet 
the definition. Operators need assurance of which aircraft will be 
acceptable for the incentives mandated by this law. Companies need 
substantial time to plan for such major acquisitions. Please set a 
deadline for the qualification of Quiet Technology aircraft.
    Thank you for your time.

    Senator Thomas. Thank you very much.
    Mr. Maynard.

 STATEMENT OF CHARLES W. MAYNARD, MEMBER OF THE NATIONAL PARKS 
                   OVERFLIGHT ADVISORY GROUP

    Mr. Maynard. Chairman Thomas and Ranking Member Akaka and 
Senator Alexander, thank you for this time to present my views 
on the Air Tour Management Act and its enforcement.
    I became interested in this issue of commercial overflights 
of national parks due to my work at the Great Smokies and in 
Yellowstone and the Grand Tetons. For over a decade, the 
National Park Service and the Federal Aviation Administration 
struggled over jurisdiction and impacts concerning air tours 
over our national parks.
    I was a member of that original National Parks Overflight 
Working Group that continued to wrestle with those same issues. 
The group finally came to a consensus about a process that was 
incorporated into the National Parks Air Tour Management Act.
    All members of the group agreed that national parks were 
special places for our country. They also agreed that one 
regulation would not fit every unit in the National Park 
System. At that point, the process of an air tour management 
plan was conceived. Safety and resource impact concerns could 
be determined on a park-by-park basis with input from local, 
regional, and national perspectives.
    Since the act was passed, it appears that the two agencies 
have continued to struggle over those same issues: jurisdiction 
and impacts. The two agencies have assigned capable staff who 
seem to work well together. I am not convinced that there was 
good collaboration at the beginning of the process, but I will 
say in the past year, the pace has picked up and the two teams 
seem to be working better together. I think we had a very slow 
start that delayed some of the implementation far beyond all of 
our expectations.
    I am concerned that existing and new entrants are not being 
held to a standard that has been agreed upon through an air 
tour management plan due to the delay of the development of 
those plans. The issue of verification still seems to be in a 
gray area, as my friend Dave has mentioned. How do we verify 
information supplied by the operator or by those on the ground?
    I am also sure that other existing and new entrants are 
struggling to maintain or grow a business in an uncertain 
climate created again by the lack of an ATMP. This impacts 
visitor experiences as well as air tour businesses. Neither of 
these situations is a good one.
    Another reason for delay is the struggle to define adverse 
significant impacts. In fact, at its last meeting in March, the 
National Parks Overflights Advisory Group was asked to weigh in 
on this issue and provide a white paper for the agencies. This 
is currently being worked on and will be considered at its next 
meeting. I think it is very important that the National Park 
Service have a major role in determining what are adverse 
significant impacts on the soundscapes of the very places that 
have been placed under their care.
    Still another issue for consideration is the enforcement of 
the ATMP's. Since the National Park Service has no role in the 
enforcement of FAA rules, it can only report infractions. It 
was the intent of the original group that the enforcement would 
be up to the FAA through operating certificates issued to the 
operators. In this way, if a bad apple begins to spoil the 
bushel, that operator would lose his or her certificate. I am 
unclear whether this is still the process, but hope that this 
can be clarified through work with the advisory group and the 
two agencies.
    In the original working group, we had some discussions on 
using incentives to reward good actors. It appears that this 
would be in the power of Congress to institute some of these 
incentives. We also talked about providing incentives for those 
who use quieter technology. Due to the greater expense of 
newer, quieter technologies, it was understood that without 
real incentives, an operator would have no motivation to buy 
the latest technology. I hope that your committee will consider 
some possibilities in this matter so that even areas that have 
overflights will be able to be quieter.
    What troubles me about this slow to no progress is that the 
need for the experience of natural sounds is unabated. If 
anything, in the midst of the din of our modern world, the need 
for natural sounds is growing. If my own words are strongly in 
favor of natural sounds, it is because I fear their loss. We 
must treasure the soundscapes of an area just as we would the 
landscapes. However, our parks are also treasures of our 
Nation's history. Sometimes our silence needs to be out of 
respect for courage and sacrifice at sites such as Gettysburg, 
Valley Forge, or Chickamauga.
    I would urge you to fully fund the efforts of both agencies 
in their work to fulfill the intent and requirements of the 
National Parks Air Tour Management Act. I also would hope that 
you would plan periodic checkup meetings with the FAA, the NPS, 
and the advisory board.
    We need to be still and silent long enough to hear. We need 
to shut off the noise long enough to revel in the natural 
sounds that abound in our parks. We need to be quiet long 
enough to stand in awe at national shrines and contemplate the 
enormous sacrifices that have been made for freedom and 
liberty.
    The Air Tour Management Act is good legislation that goes a 
long way in preserving the soundscapes of America's treasures 
while allowing them to remain accessible. I urge you to 
continue your efforts on behalf of our country's special 
places.
    Thank you, Mr. Chairman and members of the committee for 
this chance.
    [The prepared statement of Mr. Maynard follows:]

Prepared Statement of Charles W. Maynard, Member of the National Parks 
Overflight Advisory Group and Former Director of Friends of Great Smoky 
                        Mountains National Park

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to present my views on the Air Tour Management Act of 2000 
and its enforcement.
    I wish to submit the text of my comments for the records of the 
Senate Subcommittee on National Parks and to summarize them in my 
comments.
    I served as the first Executive Director of Friends of Great Smoky 
Mountains National Park from 1994 to 2001. Also, as a member of the 
original National Parks Overflight Working Group (NPOWG), a current 
member of the National Parks Overflight Advisory Group (NPOAG), and an 
author of books and articles about America's scenic and historic 
treasures, I am grateful for this moment to give you my thoughts on the 
implementation of the Air Tour Management Act.
    I became interested in the issue of commercial overflights of 
national parks due to my work in the Great Smokies, Yellowstone, and 
the Grand Tetons. For over a decade the National Park Service (NPS) and 
the Federal Aviation Administration (FAA) struggled over jurisdiction 
and impacts concerning air tours over our national parks. The White 
House appointed the National Parks Overflight Working Group that 
continued to wrestle with the same issues, but came to a consensus 
about a process that was incorporated into the National Parks Air Tour 
Management Act.
    All members of the Working Group agreed that National Parks were 
special places for our country. They also agreed that one regulation 
would not fit every unit in the National Park System. It was at that 
point that the process of an air tour management plan was conceived. In 
this way, safety and resource impact concerns could be determined on a 
park-by-park basis with the input of local, regional, and national 
perspectives.
    At times in the years since the act was passed in 2000, it appears 
to me that the two agencies have continued to struggle over 
jurisdiction and impacts. The two agencies have assigned capable staff 
to work on this issue. While the two sets of staff people seem to work 
well together at meetings, I'm not convinced that there was good 
collaboration from the beginning. I will say that in the past year the 
pace has picked up and the two teams seem to be working better 
together. At this point I must say that the staffs of both agencies are 
bright, capable people who seem dedicated to working on this issue. I 
think we simply had a very slow start that delayed some of the 
implementation far beyond anyone's expectations.
    Both agencies have had to deal with new regulations and security 
concerns since September 11, 2001. The implementation of this act 
coincided with this difficult time. I do think that this delayed both 
the FAA and the NPS in their initial efforts to implement the act.
    I am concerned that existing and new entrants are not being held to 
a standard that has been agreed upon through an air tour management 
plan (ATMP). The issue of verification still seems to be in a gray 
area. How do we verify information supplied by the operator or by those 
on the ground?
    I am also sure that other existing and new entrants are struggling 
to maintain or grow a business in an uncertain climate created again by 
the lack of an ATMP. There are impacts on visitor experiences as well 
as air tour businesses. Neither of these situations are good ones.
    Another reason for delay is the struggle to decide the definition 
of ``adverse significant impacts.'' In fact, at its last meeting in 
March, the National Parks Overflight Advisory Group was asked to weigh 
in on this issue and provide a white paper for the agencies. This is 
currently being considered. I think it is very important that the 
National Park Service have a major role in determining what are adverse 
significant impacts on the soundscapes of the places under their care.
    Still another issue for consideration is the enforcement of the air 
tour management plans with the operators. Since the National Park 
Service has no role in the enforcement of FAA rules, it can only report 
infractions. It was the intent of the original group that the 
enforcement would be up to the FAA through the Part 135 certificates 
issued to operators. In this way, if a ``bad apple'' begins to spoil 
the bushel, that operator loses his/her Part 135 certificate. I am 
unclear whether this is still the process but hope that this can be 
clarified through work with the advisory group and the two agencies.
    In the National Parks Overflight Working Group we had some 
discussions on using incentives to reward good actors. It appears that 
this would be in the power of Congress to institute some of these 
incentives. We also talked about providing incentives for those who use 
quieter technology. Due to the greater expense of newer, quieter 
technologies, it was understood that without real incentives an 
operator would have no motivation to buy the latest technologies 
available. I hope that your committee will consider some possibilities 
in this area so that even areas that have overflights will be able to 
be quieter.
    What troubles me about this slow to no progress is that the need 
for the experience of natural sounds is unabated. If anything, in the 
midst of the din of our modern world, the need for natural sounds is 
growing.
    It is important that we as humans have places where we can listen. 
National parks are some of those spots where human-made noise needs to 
be left behind so that natural sounds can be heard and discerned.
    An old folktale describes a farmer who was disturbed by the 
``noise'' of his wife, his children, and his mother-in-law. When he 
sought the advice of the village wise man, he was told to bring his 
pigs, cows, and goats into his house with his family. The noise was 
atrocious! He couldn't stand it. Upon returning to the wise man, he was 
advised to remove the animals. As the animals were taken out, he began 
to hear the music of his family. ``Ah,'' said he, ``much better. We 
have to remove the noise to hear the sounds that surround us.
    Several years ago I came to Washington's National Gallery of Art to 
see an exhibit of Thomas Moran's works. The paintings were marvelous. 
Enormous canvases of the Grand Canyon, Yellowstone, and Idaho Falls 
covered entire walls. Small watercolors of Yellowstone recalled scenes 
now familiar to me. What amazed me was how quiet it all was. People 
spoke little and then only in hushed tones. I found myself thinking 
that these people were being respectful of great works of art that were 
fakes. Yes, fakes! The real works of art are what Moran was trying to 
capture on canvas. The authentic treasures are in those national 
parks--the Grand Canyon, Yellowstone, Yosemite, the Great Smokies.
    It is puzzling to me that we treat ``fakes'' with more respect and 
awe than we do the real articles. Many attempts have been made over the 
years to encroach on the natural sounds of our nation's parks. Cars, 
buses, airplanes, motorboats, personal watercraft all serve useful 
purposes in transporting people, but each has its place. Some places 
need to be reserved for listening without the interruption of 
mechanical noises. Too often our ears are assaulted with harsh human-
made noise that overpowers. National parks are for the benefit and 
enjoyment of all the people. All these people have many needs and 
desire varied uses.
    Enjoyment for one is work for another. To see the Grand Canyon from 
the air can be an awesome experience, as can a trek deep into the 
canyon away from the press of humanity. Striking an equitable balance 
requires that BOTH experiences be valued. This is not an either-or 
choice. Our national parks are for the enjoyment of ALL people. We must 
be wise enough to craft spaces for all uses. This is not without its 
difficulties as the past few years have shown us. It was the intent of 
the National Parks Overflight Working Group and the National Park Air 
Tour Management Act to seek that balance.
    If my own words are strongly in favor of natural sounds, it is 
because I fear their loss in the din of our mechanized world. We must 
treasure the soundscapes of an area just as we would the landscapes. 
However, our parks are also treasures of our nation's history. 
Sometimes our silence needs to be out of respect for courage and 
sacrifice, at sites such as Gettysburg, Valley Forge, or Chickamauga 
for example.
    I would urge you to fully fund the efforts of both agencies in 
their work to fulfill the. intent and requirements of the National Park 
Air Tour Management Act. I also would hope that you plan periodic 
check-up meetings with the Federal Aviation Administration, the 
National Park Service, and the National Parks Overflight Advisory 
Board.
    Natural quiet does not exist. Heaven forbid that it ever should. 
Rachel Carson warned about hazards to the environment in her book, 
Silent Spring. The implication was that if nature is silent, then there 
is real trouble. Nature is NOT quiet. It is filled with wonderful 
sounds loud and soft, booming and buzzing.
    No one likes to be shushed. We should be encouraging people to 
listen, to truly hear the wonderful natural chorus that surrounds us. 
We don't need natural quiet. We need human-made quiet. We need to be 
still and silent long enough to hear. We need to shut off the noise 
long enough to revel in the natural sounds that abound in our natural 
parks. We need to be quiet long enough to stand in awe at national 
shrines and contemplate the enormous sacrifices for freedom and liberty 
others have made on our behalf.
    In summary, my recommendations are:

  <bullet> That the agencies (FAA and NPS) are fully funded to complete 
        the ATMPs for all the parks where operators have requested to 
        fly.
  <bullet> That the agencies (FAA and NPS) have full funding to monitor 
        the ATMPs.
  <bullet> That a simple and clear procedure of verifying air tour 
        operations must be developed.
  <bullet> That the National Park Service have the lead role in 
        determining adverse significant impacts to the resources and 
        soundscapes in the parks.
  <bullet> That Congress continue to work with and monitor the progress 
        of the two agencies (FAA and NPS) as they work on implementing 
        the ATMA of 2000.
  <bullet> That the two agencies continue their work together and with 
        the National Parks Overflight Advisory Group.
  <bullet> That Congress develop some incentives for those who comply 
        with a park's air tour management plan and some penalties for 
        those who do not.
  <bullet> That Congress develop some incentives for those operators 
        who employ quieter technology.

    The National Parks Air Tour Management Act is good legislation that 
goes a long way in preserving the soundscapes of America's treasures 
while allowing them to remain accessible. I urge you to continue your 
efforts on behalf of our country's special places. It would be a shame 
to come this far and let it fall by the wayside now.
    Thank you, Mr. Chairman and members of the committee for the 
invitation to this hearing. I am most encouraged by your work and your 
continued interest in our national parks and this very important issue.

    Senator Thomas. Thank you.
    Mr. Barger.

 STATEMENT OF DON BARGER, SOUTHEAST REGION DIRECTOR, NATIONAL 
                 PARKS CONSERVATION ASSOCIATION

    Mr. Barger. Good afternoon, Mr. Chairman, Ranking Member 
Akaka, Senator Alexander. In the world of meaning, Charles 
Maynard is always a hard act to follow. I appreciate the 
opportunity to present comments of the National Parks and 
Conservation Association.
    Congress elevated two basic principles when it passed the 
Air Tour Management Act in 2000. No. 1, that the sounds of 
nature are among the inherent components of the resources that 
form the core of the National Park Service's conservation 
mandate; and two, that within the units of the National Park 
System, the opportunity to experience natural sounds shall be 
preserved unimpaired for the enjoyment of future generations. 
These two principles embody the most fundamental purposes of 
the National Park Service Organic Act of 1916 and reflect the 
act's enduring meaning in the world today.
    I want to focus my comments on three areas of 
implementation.
    First, this act was carefully designed to allow both 
agencies to use existing tools and authorities in a tandem 
effort. While we believe that the working relationship may be 
improving between the FAA and the Park Service, things are 
going to continue to bog down if the Park Service tries to tell 
the FAA how to fly planes or if the FAA tries to tell the Park 
Service how to protect parks.
    We believe that the legislative history is clear. Quoting 
from the report on the Committee on Commerce, Science, and 
Transportation from S. 82 in 1999, ``The committee further 
intends that the FAA retains its role as the sole manager of 
America's airspace and its responsibility to ensure a safe and 
efficient air transport system and that the NPS retains its 
responsibility and authority to protect park resources and 
values and visitor experiences.''
    We urge this subcommittee to continue to pay close 
attention to this point as it is crucial in avoiding further 
delay. The protection of our parks should not be determined by 
a departmental compromise.
    Second, NPCA is concerned that there is not yet a reliable 
process to certify the existing number of commercial air tour 
overflights over park units or even whether operators have 
existing operations over the parks where they claim to fly. 
National park managers were surveyed in 1992 and reported 42 
park units had existing flightseeing operations. After the 
final rule was issued, however, more than 70 air tour operators 
applied for interim operating authority as existing operators 
at more than 100 national park units. Collectively, these 
existing operators are claiming to fly more than 160,000 air 
tour overflights a year over units of the National Park System, 
excluding Grand Canyon. Is this the right number? The answer is 
basically we do not really know. Inaccuracies in these numbers 
frustrate any meaningful assessment of the impacts of existing 
flights on the parks resources and visitors.
    To answer your question, Senator Alexander, this last week 
I called up the Smokies and asked them were they aware of any 
interim operating authority applications having been filed and 
their answer was no for the two operators down in Sevierville. 
That does not mean they have not been but the park simply was 
not aware of them at all.
    NPCA believes the best solution to this situation is 
sunlight. FAA should immediately release to the public the 
names of all air tour operators claiming existing operator 
status over parks, along with the number of flights that they 
each claim. We also recommend that the FAA release the names of 
new entrant applicants and where they wish to fly. Such 
information is central to the understanding of whether and how 
the act is being implemented. At this point none of this 
information is available to the general public, and as far as 
we know, FAA even refuses to give interim operating 
applications to their partners, the National Park Service.
    Third, while Congress has specifically granted the Park 
Service the authority to protect park visitors and resources, 
the Park Service has insufficient funding to implement the act 
as intended. Park Service estimates given to NPCA more than 4 
years ago showed that the funding requirements for air tour 
management planning are more than twice the current budget. 
Unfortunately, the lack of funds prevents the Park Service from 
playing the role that the act properly prescribes. It is yet 
another byproduct of the chronic operational funding shortfall 
that plagues the National Park System and which many members of 
this subcommittee have been trying to help us address.
    In conclusion, NPCA respectfully asks that the subcommittee 
help ensure that both agencies implement the Air Tour 
Management Act expeditiously. We specifically recommend, No. 1, 
that we demand that the agencies continue to improve their 
level of cooperation, paying particular attention to ensuring 
that the Park Service retains its authority to determine the 
impacts of air tours on park resources, visitors, and values; 
two, call for the expedited release of information to the 
public on existing and new entrant applications and the 
development of a clear procedure for verifying operator claims 
about where and how often they fly; and finally, support an 
increase in funding for the Park Service's operations so that 
it can fully participate in the development of these plans.
    Thank you, Mr. Chairman and members of the committee, for 
inviting me today. I very much appreciate your interest in this 
very important issue.
    [The prepared statement of Mr. Barger follows:]

    Prepared Statement of Don Barger, Southeast Regional Director, 
                National Parks Conservation Association

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to present the views of the National Parks Conservation 
Association on the implementation of the National Parks Air Tour 
Management Act of 2000 (the Parks Air Tour Act).
    NPCA is the only national, non-profit advocacy group dedicated 
solely to protecting and enhancing America's National Park System for 
present and future generations. NPCA's 300,000 members are spread 
throughout the United States; they visit national parks to experience 
nature, wildlife, scenic wonders, and natural soundscapes, as well as 
to enjoy the many cultural and historic features that our nation has 
chosen to preserve for posterity.
    Since 1992, I have been employed as NPCA's Southeast Regional 
Director. The region I manage for NPCA includes 46 national park units, 
including the Great Smoky Mountains National Park, the most visited 
national park in the entire National Park System.
    The management of commercial air tours over national parks has long 
been of great concern to NPCA and our members. While we do not oppose 
all commercial air tours over parks, we are concerned that Park System 
units such as Hawaii Volcanoes, Haleakala, Bryce Canyon, Glen Canyon, 
and Grand Canyon are subject to overflights by hundreds and thousands 
of commercial air tours every year. Commercial air tours can disrupt 
the park experience for visitors: The noise from helicopters and planes 
and the visual intrusions they cause often jar visitors who travel 
great distances to visit the parks and expect a measure of peace and 
solitude.
    NPCA worked on the development and pushed for the passage of the 
National Parks Overflight Act of 1987, a law that gave the FAA and Park 
Service the ability to regulate commercial air tours over Grand Canyon 
and called for a study on overflights over parks nationwide. Members of 
our staff worked with representatives of the FAA, Park Service, air 
tour industry, and Native American community in the National Parks 
Overflight Working Group, which drafted some of the original language 
for the Parks Air Tour Act of 2000, the law whose implementation we are 
discussing today.

                          LEGISLATIVE HISTORY

    Congress elevated two basic principles when it passed the Parks 
Overflight Act of 1987 and the Parks Air Tour Act: (1) that the sounds 
of nature are among the inherent components of the resources which form 
the core of the National Park Service's conservation mandate and (2) 
that within units of the National Park System, the opportunity to 
experience natural sounds, shall be preserved ``unimpaired for the 
enjoyment of future generations.'' These two principles embody the most 
fundamental purposes of the National Park Service Organic Act of 1916, 
and reflect the Parks Air Tour Act's enduring meaning for the world 
today.
    In enacting these important park overflight laws, Congress placed 
significance importance on the protection of natural sounds in our 
national parks such that it designed a new, unprecedented role for the 
National Park Service in their implementation. Congress authorized the 
National Park Service to exercise some control, in cooperation with the 
FAA, over the commercial air tour industry that profits from flying 
over many of our most scenic and visited national parks. Both the Park 
Overflights Act and the Parks Air Tour Act broke new ground in ordering 
a level of cooperation between the National Park Service and the FAA to 
which neither agency was accustomed, and I dare say for which neither 
agency was fully prepared.

                             IMPLEMENTATION

    The different cultures and missions of FAA and NPS have hindered 
the implementation of the Parks Air Tour Act and resulted in extremely 
disappointing delays in implementing the Act. As the Act recognizes and 
provides, the FAA has the ``authority'' to control airspace and to 
manage the adverse effects of aircraft overflights on public lands. The 
Act also recognizes that the Park Service is the appropriate agency to 
determine the impacts of commercial air tours on park resources and 
visitor experiences. The competing missions and goals of both agencies 
resulted in a delay of 2\1/2\ years before the FAA published the final 
rule to implement the Parks Air Tour Act--a critically important rule 
because it defined the air space over national parks that would be 
subject to regulation. In addition it took both agencies more than 
three years to finalize a Memorandum of Understanding that helps define 
how they will cooperate when analyzing the air tour issue at national 
parks and when implementing management solutions.
    While the working relationship between the FAA and the Park Service 
has been improving somewhat, the debate continues over which agency 
determines the impacts of air tour overflights on park visitors and 
resources. This is particularly troubling, given the important role for 
the Park Service contemplated by the Act, its legislative history,\1\ 
and the recommendations of the National Parks Overflight Working 
Group.\2\ And although the FAA may be expected to claim that it will 
defer to Park Service expertise in determining air tour impacts, the 
actual experience and relative power and resources of the two agencies 
makes this assertion highly questionable. We encourage the subcommittee 
to make certain that the Park Service is, in fact, the agency that 
determines air tour impacts, so appropriate implementation may move 
forward without further delay. This includes ensuring the Park Service 
receives and requests the resources necessary to do the job.
---------------------------------------------------------------------------
    \1\ See p. 44 of Report (106-9) of the Committee on Commerce, 
Science, and Transportation on S. 82, March 8, 1999.
    \2\ See p. 4, National Parks Overflights Working Group Outline of 
Recommended Rule, December 16, 1997.
---------------------------------------------------------------------------
                         THE AIR TOUR ACT RULE

    The rule required that existing and new entrant air tour operators 
wishing to fly regular tours over park units apply to the FAA. Those 
applications identified for the FAA and NPS which national park units 
and tribal lands actually required air tour management plans. 
``Existing operators'' were granted Interim Operating Authority (IOA) 
so that they could continue to fly over a park unit. According to the 
Parks Air Tour Act, IOA grants each existing air tour operator 
permission to fly a certain number of flights annually; each operator's 
total flight allowance is based on the number of annual flights he flew 
over a park unit before the passage of the Act.\3\ IOA may not provide 
for an increase in annual flight numbers unless the FAA Administrator 
and Park Service Director agree to an increase.\4\ A final air tour 
management plan may, however, provide for increases; prohibit air tours 
entirely; or lower the existing limits on numbers of operations imposed 
by the I0A. ``New entrants'' generally are prohibited from operating 
until a park unit completes an air tour management plan, specifically 
to pause the growth of air tour operations over park units until the 
FAA and Park Service create a suitable management structure. Yet, the 
Parks Air Tour Act provides that the FAA Administrator, with the 
consent of the Park Service Director, may grant IOA to ``new entrants'' 
if (1) the Administrator determines that ``new entrants'' are necessary 
to ensure competition over a park unit and (2) more than two years have 
elapsed since enactment. We believe the agencies should not consider 
``new entrant'' applications until the agencies and the public has 
complete and reliable information on existing operators' status over 
parks. Although the Act provides for the integration of competition for 
the park air tour business, bringing new entrants into park airspace 
where impacts of existing air tour overflights have not been accurately 
identified or analyzed--and indeed, the data about existing air tour 
overflights may be suspect--frustrates the purpose and intent of the 
Act.
---------------------------------------------------------------------------
    \3\ IOA, as defined by the final rule, shall provide annual 
authorization only for the great of: The number of flights used by the 
operator to provide the commercial air tour operations within the 12-
month period prior to April 5, 2000; or the average number of flights 
per 12-month period used by the operator within the 36-month period 
prior to April 5, 2000.
    \4\ The Act also says that IOA ``shall'' promote protection of 
national park resources, visitor experiences, and tribal lands; and 
``shall'' allow for modifications of the IOA based on experience if the 
modification improves protection of national park resources, and 
values, and of tribal lands.
---------------------------------------------------------------------------

                      SCOPE OF PARK AIR TOUR ISSUE

    In 1992, the National Park Service surveyed park managers 
throughout the Park System about the type and scope of aircraft 
overflights impacting park units. At that time, managers in 42 park 
units reported the existence of sightseeing overflights over the units 
they managed.\5\ We knew then that air tours at certain parks were of 
great concern, but we did not yet fully comprehend the scale. The 
potential scale became clear after the final Parks Air Tour Act rule 
was issued and more than 70 air tour operators applied for IOA as 
existing operators for more than 100 national park units. Collectively, 
these existing operators are claiming they fly more than 160,000 air 
tour overflights a year over units of the National Park System. This 
figure excludes air tours over Grand Canyon National Park. But, is this 
the correct number of actual air tours over the Park System? Because of 
the problems with verification and lack public disclosure in the IOA 
process, we cannot be certain.
---------------------------------------------------------------------------
    \5\ Results of survey included in the Park Service's July 1995 
Report on Effects of Aircraft Overflights on the National Park System 
(prepared pursuant to the 1987 National Parks Overflights Act).
---------------------------------------------------------------------------
    Some parks clearly have a larger problem with air tour overflights 
than others: At Hawaii Volcanoes and Haleakala National Parks, which we 
know have active air tours throughout the year, existing operators 
claim to fly more than 23,000 flights a year over each park. While 
there is likely a fluctuating, seasonal nature to this business in many 
parks, the total number of overflights over those two Hawaii park units 
would translate to an average of more than 63 flights a day over each 
park. Over the U.S.S. Arizona Memorial in Honolulu harbor, operators 
claim more than 3,600 flights a year. Air tour operators over Mount 
Rushmore National Monument report they fly more than 5,500 overflights 
annually. Glacier National Park, a park with a publicly-vetted General 
Management Plan that calls for the elimination of commercial air tour 
overflights, has more than 1,500 air tours a year, most.concentrated in 
a three-month summer season. And, operators are claiming hundreds and 
thousands of flights a year over a number of parks in the southwest and 
some in the east.

                   PUBLIC DISCLOSURE AND VERIFICATION

    There is not yet a reliable process to certify the existing number 
of commercial air tour overflights over park unit or even whether 
operators have existing operations over the parks where they claim to 
fly. While many operators filed or attempted to file accurate claims in 
their IOA applications, some of the claims that we have seen arouse 
suspicion. We learned in discussions during the last Overflight 
Advisory Group meeting that in some cases, FAA's instructions to 
commercial air tour operators about how to apply for IOA might have 
been unclear or inconsistent. As a. result, some commercial air tour 
operators may have provided inaccurate information about the national 
parks they actually fly over and the number of flights flown over 
specific parks. Our concern is that before the air tour management 
process even has begun over most park units, we may have unreliable 
figures at some parks about the true scale of the air tour business. 
Proceeding under such uncertainty is unfair to local communities near 
parks, park visitors, and existing and new air tour operators.
    Inaccuracies in these, numbers frustrate any meaningful assessment 
of the impacts of existing flights on a parks resources and visitors. 
This is true even when the operations are highly visible. In fact, at 
the Great Smoky Mountains National Park there are at least two flight-
seeing operations that fly into the airspace of that park and, to my 
knowledge, the park has had no applications for IOA. Whose job is it 
under the Act to enforce in this case?
    NPCA believes the best solution is sunlight: FAA should immediately 
release to the public the names of all air tour operators claiming 
``existing'' operator status over parks, along with the number of 
flights they each claim. We also recommend that the FAA release the 
names of ``new entrant'' applicants and where they wish to fly. Such 
information is central to understanding how the Parks Air Tour Act is 
being implemented and how the authority granted under IOA ``promotes 
protection'', or might be ``modified to promote protection'' \6\ based 
on long-standing experience. At this point, none of this information is 
available to the public; as far as we know, FAA refuses to give IOA 
applications to even the Park Service. During the last meeting of the 
Advisory Group, the FAA proposed to issue a new Federal Register notice 
asking all existing air tour operators to ``self-correct'' their claims 
of flight volumes over parks. After collecting those responses, FAA 
would release to the public a revised list of existing air tour 
operators along with the numbers of flights over parks they claimed. 
While such a process may work in the end, we believe it is 
unnecessarily time consuming and may cause further delays that are 
unfair to park visitors and air tour operators alike. (Genuine concerns 
about security at some internationally renowned park units, such as 
Mount Rushmore, should provide sufficient motivation to the FAA for 
informing the Park Service and the public about who is flying near 
these popular sites).
---------------------------------------------------------------------------
    \6\ See footnote 5.
---------------------------------------------------------------------------
    Following that last Advisory group meeting, NPCA and The Wilderness 
Society, both of which are members of this group, sent a Freedom of 
Information Act request to the FAA seeking the air tour operators' 
applications for Interim Operating Authority over those parks of 
concern. Our request was necessary because FAA has not provided the 
Advisory Group with the IOA applications, even though the Advisory 
Group's role is to advise the agencies on implementation of the Act. We 
want to share the results of our FOIA with the rest of the Advisory 
Group, but FAA has demanded that we pay a significant fee for its 
release of the operator applications. At this point, our FOIA request 
is still unresolved.

              FUNDING FOR THE AIR TOUR MANAGEMENT PROCESS

    While Congress has specifically granted the Park Service the 
authority to protect park visitors and park resources, NPS has 
insufficient resources to enforce the Act as intended. The Memorandum 
of Understanding between the agencies for the air tour management 
process requires a 60/40 split on costs for outside contractors hired 
to do studies and environmental assessments. This demand for 
cooperation should be recognized in the Park Service's budgets. NPS 
estimates provided to NPCA more than four years ago showed the funding 
requirements for air tour management planning to be more than twice the 
current budget of $918,000. Unfortunately, the lack of funds prevent 
the Park Service from playing the role Congress contemplated it would 
have. It is yet another byproduct of the chronic operations funding 
shortfall that plagues the National Park System, and which many members 
of this subcommittee have been trying to help us address.

                     CONCLUSION AND RECOMMENDATIONS

    In conclusion, NPCA respectfully asks that the subcommittee help 
ensure that both the FAA and NPS implement the National Parks Air Tour 
Management Act expeditiously, and according to the spirit, and not just 
the letter of the law. We specifically recommend that Congress:

  <bullet> Demand that FAA and NPS continue to improve their level of 
        cooperation, while paying particular attention to ensuring that 
        NPS retains its authority to determine the impacts of air tours 
        on park resources, visitors, and values;
  <bullet> Call for the expedited release of information, to the public 
        on existing and new entrant park air tour operator applications 
        and the development of a clear procedure for verifying park air 
        tour operator claims about where and how often they fly;
  <bullet> Support an increase in funding for the Park Service's 
        operations so it can fully participate in the development of 
        air tour management acts

    Thank you, again, Mr. Chairmen for the opportunity to testify today 
and for your subcommittee's interest in this important issue facing our 
national parks. I welcome any questions that you may have.

    Senator Thomas. Well, thanks to all of you. We appreciate 
you being here and appreciate your points of view.
    Maybe we have a few quick questions. We will try to ask 
them quickly, and if you can answer them quickly, that will be 
nice too.
    Mr. Resavage, you referred to quotas arbitrarily set at 
unjustly low levels. What do you mean? Who set the quotas and 
why are they arbitrary?
    Mr. Resavage. Well, I say they are arbitrary because a 
timeframe was just picked that said if you have flown between 
this month of this year and this month of this year, that that 
should be the number that you should be held to. Well, was that 
a good year or a bad year? Was that a year where there was a 
lot of activity or was it a year where there was very little 
activity? Is the need or the requirements of the people that 
want to visit the parks increased or decreased the people that 
want to experience the parks by air? So it is very difficult 
for us to understand how those numbers could be selected to 
begin with and then the justification for maintaining them at 
that particular level.
    Senator Thomas. Thank you.
    Mr. Maynard, you indicated that it is important the Park 
Service has a major role in determining the adverse impact. Is 
there a concern on your part that that is not the case?
    Mr. Maynard. Well, I am concerned that we are still arguing 
over what adverse significant impacts are.
    Senator Thomas. Arguing with who?
    Mr. Maynard. The two agencies are still working on that 
definition.
    Senator Thomas. Why would FAA have any particular concern 
about the impacts? I would think you would determine what the 
impacts are and then FAA would figure out how to avoid them.
    Mr. Maynard. I do not think that is the way it is currently 
being--I think they are trying to come up with definitions that 
both agencies can work with and live with. As I mentioned, the 
advisory group has been asked to weigh in on this and they are 
going to try to develop some things in the next few months for 
that.
    But that is, I think, one of our concerns over and over 
again, that the Park Service maintain that ability to say this 
is an impact on our resource or on our visitors in this 
resource.
    Senator Thomas. Sure, I understand.
    Does your organization have a feeling strongly about 
whether there ought to be overflights or not?
    Mr. Maynard. Well, I am at the Smokies, and as Senator 
Alexander pointed out, in the Smokies the legislation that set 
up the Smokies originally was very careful to make sure that 
commercial development stayed outside of the park so that 
unlike Yellowstone, for instance, there are no hotels inside 
the park. They are outside. So I think the local communities 
are similar to what Senator Alexander was saying, that there is 
real concern over what is happening over the park as opposed to 
away from the park looking into the park. There are ways to 
have wonderful overflight experiences but just not over the 
park.
    Senator Thomas. You say you had some involvement with 
Teton. That was kind of the way that was. The border was such 
that you could fly outside the border and still get most of the 
impacts of the--of course, you could still hear them as well, 
as I recall.
    Senator.
    Senator Akaka. Thank you, Mr. Chairman.
    Dave Chevalier, first of all, I want to say thank you 
again. Thank you for your years of hard work contributing to 
the implementation of the act. The voluntary air tour 
management plans in Hawaii are very important models for air 
tour issues nationwide, and your firm has been a key player in 
making this work. I want you to know that I do appreciate that.
    I am encouraged to hear your suggestion for using 
transponders to track flights and the use of fee demonstration 
funds from overflight visitors to fund the system. The use of 
transponders is already widespread in the trucking and 
commercial fishing industry, not to mention wildlife tracking 
and is being considered for tracking cargo containers as they 
arrive in the United States.
    What level of acceptance would this suggestion have among 
air tour operators over national parks nationwide?
    Mr. Chevalier. Senator, I think that the people that want 
to play by the rules will welcome this because it proves that 
they do play by the rules, and they will not be tarred with the 
same brush of an operator who may not want to play by the 
rules. That is always something we have to deal with. By not 
having that, by not having good enforcement, you can make 
suckers out of law-abiders. That is why something like this 
would ensure compliance and that everybody is playing by the 
rules. I think that would be well accepted.
    Senator Akaka. You mentioned incentives for quiet 
technology. I realize you have been on the forefront in 
investing in what we call quiet technology. What kinds of 
incentives and guidelines would be most useful, do you think?
    Mr. Chevalier. I am really not sure. I really hate to put 
that out as what those might be. I think that is more of a job 
for the advisory group to come up with that. But there 
definitely has to be something. I think the critical thing, 
though, is that we come up with a definition for quiet 
technology, what aircraft qualify. Yes, we have invested in 
quiet technology aircraft. That sounds good but there is 
nothing to say that they are quiet technology aircraft. There 
is no definition of this aircraft meets the definition and this 
aircraft does not. So until we have that guideline set, 
operators around the country are not going to spend that money, 
and it takes, like I said, a lot of long-term planning to be 
able to make these acquisitions for most companies, and they 
have to know what the target is.
    Senator Akaka. Mr. Resavage, I thank you for your 
forthright testimony. I appreciate your continued support for 
the goals and intent of the air tour act.
    With the problems you have highlighted, I would be 
interested in your comments on the use of a moderator or 
mediator to fix the process as suggested in other testimony.
    Another option to Congress is a study by the Government 
Accounting Office, an objective voice to evaluate and make 
recommendations on the implementation of the act.
    What is your opinion of these two options and do you have 
any other suggestions?
    Mr. Resavage. Thank you for the question, Senator.
    I would support the role of a mediator, and I think that it 
would have the potential of expediting the process. I believe 
that if a study group were to come in, that again might push 
back the results. As we all know, if you have blue ribbon 
panels working on gathering data and analyzing data, it seems 
to take forever.
    I think the people that have worked on the NPOAG really 
deserve a tremendous amount of credit where there was a lot of 
animosity in the very beginning and people were trying to 
protect their positions, but through careful negotiating and 
moderation and the willingness of people on all sides to work 
together, they have come up with a reasonable plan, again where 
not everyone is pleased but it is a workable plan that should 
be implemented.
    I think a moderator, as you possibly suggest, Senator, 
might be able to get the two agencies working a little bit 
faster and closer together. I agree with Mr. Barger's comment 
and Mr. Maynard's also that the agencies appear to be trying to 
work better recently, and they are making a solid effort to 
have this plan work. But I do not want to grow old before we 
see this thing happen, and I am getting pretty close to that 
already. So I would like to see some type of accelerated 
process, and I think your suggestion would be a good one.
    Senator Akaka. Mr. Barger, a point made several times today 
is the importance of fully funding the Park Service's 
contribution to the Air Tour Management Act. In the memorandum 
of agreement signed earlier this year, there is a 60/40 split 
between the FAA and the National Park Service. Did I understand 
correctly that at its current budget of $918,000 for 
overflights, the Park Service still falls short of its 40 
percent funding expectation under the joint agreement?
    Mr. Barger. That depends entirely on how long you want the 
process to go. What we found from the figures that we were 
given by the National Park Service several years ago was that 
the level of funding specifically for the soundscape program 
that does the implementation of the Park Service's aspect of 
these plans was less than half of what they needed to actually 
move it along on an expedited schedule. This is part and parcel 
to the chronic underfunding of the National Park Service's 
operational budget overall. There are really not other places 
that this can be pulled from.
    NPCA did a business plan initiative where we took graduate 
students from universities and put them in the parks to just do 
a small business plan for the parks, and we came up with a very 
consistent 30 to 35 percent shortfall in basic operational 
money just to operate the parks. So there is not room elsewhere 
in the Park Service's budget. These things have to be 
deliberately funded so that they can be completed in a timely 
manner.
    Senator Akaka. Well, thank you very much. My time has 
expired. So let me pass you on to Senator Alexander.
    Senator Alexander [presiding]. Senator Akaka, do you have 
other questions you would like to ask?
    Senator Akaka. Well, I have one more.
    Senator Alexander. Why do you not take whatever time you 
need?
    Senator Akaka. Mr. Barger, in your view what effect does 
the Park Service's funding level have on its ability to 
contribute to the decision-making about the law and its 
implementation?
    Mr. Barger. I think there are two aspects to that. The Park 
Service performing its appropriate function within the tandem 
effort is a matter of a cooperation and understanding between 
the two agencies of what those various roles are. I think that 
needs to be clarified. I think the agencies need to understand 
that Congress commissioned the FAA to take care of safety, 
transport efficiency, and the National Park Service to protect 
the resources and the visitor experience in national parks, and 
bifurcate those functions within their overall procedure. If 
that is done, then I would suggest that we may not need a 
mediator. In fact, you might have a lot clearer process to move 
forward with.
    Senator Akaka. Thank you for your responses.
    Thank you very much, Mr. Chairman.
    Senator Alexander. Thank you, Senator Akaka, for your 
interest and leadership.
    I want to thank the witnesses for this. I am officially new 
to the issue and catching up, so I will not have many 
questions. I am personally not new to the issue because I am 
very interested in it and I am interested in seeing the dilemma 
that the law creates for all of you. Basically it says the Park 
Service can decide, the way I read it, what the environmental 
impact is, but the FAA can decide how to control the airspace. 
Then that leaves the operators, who are trying to operate a 
business, with a lot of uncertainty for a long period of time 
while that is worked out, and that is about the worst thing 
that can happen to a small business.
    Let me just ask this. None of you represent the Park 
Service but did you start out with the idea that the Park 
Service could just make a decision in all the parks about what 
it would take to protect the parks and then send it to the FAA 
and let them outside that area make the safety rules? That 
would be one way to do it.
    Why does the Park Service under the law not have the right 
to say that in Chickamauga, which was an example that Senator 
Thomas used, to preserve the serenity of the occasion, we do 
not want to be able to hear any helicopters and just send that 
to the FAA? Or why could the Park Service not decide that in 
another area that there were major areas where it did not make 
much difference or it made less difference? Did that ever 
happen?
    Mr. Chevalier. That was the crux of the discussion in the 
working group certainly. We did decide that there may be some 
parks where air tours are not appropriate, and that will be 
determined at the end of the ATMP process. There may be some 
parks where there are going to be unlimited air tours because 
it is an urban environment. We would hope that in most parks 
certainly now that have air tour flights, there can be an 
accommodation worked out where it can be a win-win for both. 
That is really what we want to get to, where there is a place 
for ground visitors where they can have the experience, the 
solitude and natural quiet, and at the same time we can have a 
place where air tour visitors can see their parks as well.
    Senator Alexander. That is a very reasonable approach. I am 
just wondering, though, why the FAA has anything to do with the 
kind of experience someone has in a national park. Why is the 
National Park Service not in charge of that?
    Mr. Resavage. Senator, if I could just add. Part of the 
difficulty is, as Mr. Hoffman had mentioned earlier, it is a 
very complicated process trying to figure out what is an 
acceptable level of noise or excess energy, whatever the PC 
term is for what we hear, whether it is buses or trains or cars 
or helicopters that are in the National Park System. When you 
are trying to work the algorithms and figure out how much noise 
is acceptable and who is contributing what to that, the FAA 
cannot be taken out of that equation because there are airports 
that are in close proximity to some national parks. There are 
aircraft that are flying over the parks that are actually not 
part of the commercial experience but they are also adding 
noise to the environment. So it is a very delicate process of 
trying to figure out who is adding what to the equation and who 
should be held accountable for trying to compensate for that 
noise or reduce that noise.
    Mr. Barger. Senator Alexander, if I may respond also to 
that. I think it is a very good question. My response would be 
the National Park Service is responsible for those things, and 
in fact, the legislation was designed and the report language 
confirms that, in fact, the intention was for the agencies to 
exert existing authorities, rather than try to create a new 
authority or new jurisdiction, to simply meld those two 
together in a tandem effort.
    I think where you see a lot of the complications--they come 
from two different agencies participating in a NEPA process 
together where one is a lead agency by necessity and the other 
a cooperating agency. And in relation to national parks, the 
park-specific nature of the resources in that particular place 
need to be looked at. The degree and depth of analysis is going 
to vary from place to place.
    And third, public involvement is one of the reasons you 
want to make sure and have a process in each place.
    I will say that a decibel meter can give you information 
but it cannot give you a decision based on the preservation of 
values. I think that is where your question went. I have to 
agree with you that the National Park Service has the mandate 
from Congress to make those kinds of decisions. I think after a 
few plans have been put in place and some common things begin 
to develop, you may find them coming much more efficiently and 
more quickly.
    Senator Alexander. Let me ask, if I may, just maybe one or 
two more questions, and then I will see if Senator Akaka has 
any other questions.
    Just so I understand what the status of things are today, 
if I am an operator and I want to fly at Chickamauga, can I do 
that? Can I fly over a national park if I am not now flying? 
What is the law?
    Mr. Chevalier. No.
    Senator Alexander. So new entrants are not allowed today, 
is that correct, while this decision-making is going on?
    Mr. Resavage. Senator, my understanding is that if someone 
has not currently operated within the previous 12 months, they 
cannot automatically start operating in a national park area. 
They can apply for an interim operating authority, but then as 
Mr. Withycombe had mentioned earlier and Mr. Hoffman both, then 
that application will be taken into account and they will 
determine whether that would have an adverse impact or not. But 
to date, to my knowledge, that is not what is occurring. To 
have a new entrant, basically a person would have to obtain 
someone else's certificate even at an existing park, let alone 
starting an operation at a new park.
    Senator Alexander. Thank you.
    And since Mr. Maynard and Mr. Barger know the Smokies 
pretty well, am I right, so far as you know, are there now two 
operators operating flights in the Smokies? Is that correct, or 
do you know?
    Mr. Maynard. There are two that have applied for interim 
operating authority that had had operations before. However, 
there are two others that appear to be operating there as well.
    Senator Alexander. Do the other two have the authority to 
do that?
    Mr. Maynard. Well, I think that is what we need to 
determine.
    Senator Alexander. That would be answered by my question to 
the National Park Service and the FAA. So that would be four 
operators that have been observed operating in the Smokies.
    Mr. Maynard. Right.
    Senator Alexander. And you think two clearly have authority 
and it is not clear whether two more do.
    Mr. Maynard. Right.
    Senator Alexander. Well, thank you. I think Chairman Thomas 
has done a service by putting the spotlight on this, and 
Senator Akaka by his interest has done the same. I am glad to 
have had the chance to be a part of the discussion. I apologize 
for missing the first part, but I could not help that because 
of my presiding responsibilities.
    Just to summarize three principles that are in my mind as I 
will be looking at this, I think certainty is a very important 
principle and the Government does a disservice to itself, to 
the people it serves, and to small businesses especially when 
it creates uncertainty so people cannot make their plans. So 
the idea of moving things along is certainly something we 
should do.
    Then I think we have got two other principles that I will 
have in my mind as I look at what the right thing to do is 
here. I have come to believe that the absence of artificial 
noise may be 20 or 25 years from now the rarest and most 
valuable quality of life aspect that we have. It will be harder 
and harder to find. I also believe that there are many national 
parks where limited or no loud helicopter noises would be the 
right policy. That would be my personal view. I think of the 
Smokies in particular because of the huge population that uses 
the Smokies and is around the Smokies, and there are not many 
refuges in that geographical area of this country. Loud 
helicopter noise or loud any noise is in direct contradiction 
to 500,000 acres that are operated as if it were a wilderness.
    Having said that, I am also aware that a single policy for 
all our parks and all our sections of the country is almost 
always not a wise policy. Almost always. The West has one set 
of circumstances; the East has another. Cities have some; rural 
has another. I hope that as we work through this as a committee 
and as your organizations do and as the Government agencies do 
that we admit that up front. There might be a wide diversity in 
policies here, just as there is broad diversity in our country. 
I can think of many examples of that. They come up before this 
committee on a regular basis.
    I was thinking of the fees that are charged for 
recreational areas and national forests. In the West where 
there are vast expanses, they have become a real irritant in 
many cases. In Cherokee National Forest in the East, the $2 
million a year that are collected there is absolutely essential 
to clean it up and run out the drug users and do all the other 
things that those of us who want to use it want. So we should 
recognize that, that in the West there might be one policy, in 
the East there might be another. That may help to get through 
the issues here. It sounds like you are already on that track 
with the advisory committee by segregating out some parts of 
the country and working on those and trying to solve those 
problems and moving on to others.
    But I appreciate your effort. I thank you for your time in 
coming here. We will all read your testimony carefully. I for 
one intend to be very interested in the subject as we move 
along.
    The hearing is adjourned.
    [Whereupon, at 4:13 p.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

           National Parks Conservation Association,
                                 Southeast Regional Office,
                                    Knoxville, TN, August 18, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas: I appreciate the opportunity to extend my 
testimony before the Subcommittee on National Parks on July 22nd 
through these responses to your questions. I apologize for not being 
able to get these back to you by August 13th as requested; your letter 
did not reach me until August 12th. I hope that this information is 
responsive to your inquiries and stand ready to provide any other 
clarification or further information that you request to facilitate 
your important review of the implementation of the National Parks Air 
Tour Management Act of 2000. Your questions and my response follow.
            Yours Truly,
                                                Don Barger,
                                                   Senior Director.
[Enclosure.]

    Question 1. You noted a lack of confidence in the original 
application information the FAA received from the air tour operators. 
What is your confidence in the second round of information sought by 
the FAA?
    Answer. When the Federal Aviation Administration (FAA) drafted its 
first Advisory Circular, the National Park Service (NPS) asked the,FAA, 
to require enough information to provide a means to verify the 
submitted data. Apparently, the FAA did not do so. The only reason FAA 
has now had to ask twice is that we know from operators who are trying 
to comply with the Act that at least some of the original numbers were 
``padded'' and are not accurate. Lack of clarity about the uses of the 
information may also have left operators uncertain about its purpose 
and application. In this situation, the Reagan Doctrine--``trust, but 
verify''--seems appropriate.
    It is critically important that information be accurate before 
becoming the basis for management decisions. The ``safe harbor'' 
concept is a good idea, but only if we get it right this time. We 
believe that public involvement and daylight are essential elements of 
any successful effort. Given our experience to date, our confidence in 
the second round of information sought by FAA will most likely be 
pretty low unless FAA releases all current information on proposed or 
purported park overflights to the public, and requires meaningful proof 
from air tour operators to support their interim operating authority 
applications and the number of annual flights claimed on those 
applications.
    Question 2. You suggest that an analysis be done prior to allowing 
new businesses to operate air tours. Isn't that what the plan is 
supposed to do? What can be done short of another NEPA process to allow 
new entrants to operate sooner?
    Answer. The air tour management plans are supposed to analyze 
existing and proposed overflights impacts on park soundscapes, 
visitors, values and other resources. The delay in completing plans is 
regrettable and punctuates the importance of this congressional focus 
on FAAINPS cooperation and funding for this program. Nonetheless, we do 
not believe that the delays should force the NPS to sidestep its legal 
responsibilities to analyze the impacts of existing overflights or of 
proposed overflights prior to allowing new entrants. To do so would, in 
fact, frustrate the purpose of the Act.
    The NPOAG has been tasked to look at this issue and make 
recommendations. This consensus process has worked well to resolve 
these kinds of issues throughout the creation of this planning 
framework and we would suggest it continues to be the best avenue to 
recommend solutions to this issue.
    Question 3. Your testimony requests that the act be implemented 
according to the ``spirit of the law not just the letter of the law''. 
Please describe the difference between the two-as you see it.
    Answer. Thank you for this question as we believe that it is at the 
heart of our current situation. The ``spirit'' of the National Parks 
Air Tour Management Act is to protect our national parks, and to 
provide for a proactive and fair method for managing park overflights 
where appropriate. While the ``letter'' of the law designates FAA as 
the lead agency, it also gives the NPS equal signatory authority on the 
Record of Decision for every management plan. These two provisions were 
created deliberately and for very different purposes. The FAA was 
designated as the lead agency in preparing the air tour management 
plans because it is the agency with the authority and jurisdiction to 
implement and enforce those plans. The NPS was given signatory 
authority on the Record of Decision because it is the agency with the 
authority and jurisdiction to protect national park resources and 
values. The ``spirit'' of this statutory framework has been from the 
beginning that each agency would maintain and exercise its existing 
authority in the creation of a plan that accomplishes the respective 
missions of both.
    In the current situation, we believe FAA is trying to assert its 
own standards and processes as taking precedence over NPS standards and 
processes with regard to park protection. We believe the ``spirit'' of 
the law requires that the FAA-give deference to the NPS with regard to 
determining standards, impacts and the appropriate processes for 
evaluating these standards and impacts in relation to park protection. 
Likewise, the NPS must defer to the FAA in matters of air safety and 
enforcement of any airspace restrictions created by an air tour 
management plan. Simply put, the NPS cannot tell the FAA how to fly 
planes, and the FAA cannot tell the NPS how to protect parks.
    NPCA is grateful for the subcommittee's interest in the proper 
implementation of this important statute. The National Parks Air Tour 
Management Act is about protecting the meaning, resources and values of 
our national parks, and the experiences that we will provide to our 
grandchildren rest in the balance. Please let me know if we may be of 
further assistance to the Committee.
                                 ______
                                 
                      Helicopter Association International,
                                 Alexandria, VA, September 1, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: Thank you, again, for the opportunity to 
appear before the Subcommittee and for this additional opportunity to 
put forth common-sense solutions to the dilemma of the helicopter tour 
industry.
    In response to your three questions with regard to my testimony 
regarding the National Parks Air Tour Management Act of 2000 (P.L. 106-
181), the quick and dirty responses are as follows.
            Sincerely,
                                              Roy Resavage,
                                                         President.
[Enclosure.]

    Question 1. Given, as you noted, that the bar for completing the 
plans might have been set too high, what can be done in the meantime to 
ease the burden on air tour operators?
    Answer. Relief to the FAA and NPS stalemate would be partially 
provided by a more liberalized and standardized process of obtaining 
interim operating clearances, and an accurate assessment of the actual 
numbers of tours flown.
    Question 2. You referred to quotas ``arbitrarily set at unjustly 
low levels.'' Can you clarify this statement please? Who set the quotas 
and why are they arbitrary?
    Answer. Quotas were based upon a one-year period, not a multi-year 
average. Further, no consideration was given to future needs and number 
of persons wishing to visit the national park system by air. In fact, 
the formula does not even correctly identify the number of flights 
flown. The FAA and the NPS set the quotas.
    Solution: Take a mathematical average of a range of years. Improve 
the quality of the data. Build in a reasonable escalation provision for 
increased demand for these services.
    Question 3. What could be done in air tour management plans to 
create incentives for the use of quiet technologies?
    Who decides what constitutes quiet technology?
    Answer. The FAA is charged with defining what constitutes quiet 
technology.
    Operators that have already re-capitalized their fleet to 
significantly quieter aircraft should receive special considerations 
now! For example: Preferred commercial air tour routes and altitudes 
and relief from caps and curfews.
                                 ______
                                 
                        Department of the Interior,
           Office of Legislative and Congressional Affairs,
                                  Washington, DC, November 2, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: Enclosed are answers to the follow-up 
questions from the hearing held by the Subcommittee on National Parks, 
Senate Energy and Natural Resources Committee on July 22, 2004. These 
responses have been prepared by the National Park Service.
    Thank you for giving us the opportunity to respond to you on the 
matter. We apologize for the delay in our response.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                     Questions From Senator Thomas
    Question 1. What are the top three priorities for DOI and FAA when 
it comes to implementing the Air Tour Management Act of 2000?
    Answer. The top three priorities for the National Park Service 
(NPS) working in concert with the FAA are to:

  <bullet> provide protection of park resources through sound science, 
        air safety, and opportunities to enjoy parks via air tours;
  <bullet> improve and enhance methods to measure and analyze the 
        impacts of air craft noise and to develop appropriate and 
        effective mitigation; and
  <bullet> jointly establish, implement, and enforce a mutually 
        agreeable process for developing Air Tour Management Plans 
        (ATMPs).

    Question 1A. What progress have you made towards achieving those 
priorities?
    Answer. We are monitoring and collecting acoustic data in 
approximately nine parks slated for ATMPs as well as working with the 
DOT's Volpe Center on modeling and analysis. We are working with FAA on 
a joint implementation plan that will guide ATMP development. We are 
also working on future ATMPs and have initiated the development of 
ATMPs in 11 parks.
    Question 2A. As stated in the Act, the objective of an air tour 
management plan is to mitigate or prevent the ``significant adverse 
effects'' of air tours.
    What about effects that are less than significant, will those also 
be mitigated?
    Answer. Through its legal mandates including the Organic Act, the 
NPS is required to make every effort to mitigate less than significant 
impacts. The FAA has informed us that it has some authority and 
precedent for mitigating less than significant impacts under its 
organic statute. In the interagency meeting on January 28, 2004, the 
NPS and FAA agreed to provide appropriate mitigation in ATMPs, where 
justified, consistent with the agencies' relevant statutory 
authorities.
    Question 2B. Will the park service be responsible for determining 
the level that park resources are affected by air tours?
    Answer. Although the NPS has ``special expertise'' and under the 
National Parks Air Tour Management Act of 2000 (NPATMA), jurisdiction 
per NEPA for evaluating impacts to park resources, those determinations 
will be made jointly with the FAA (see also response to Question 3 
below).
    Question 2C. How will effects on the safety of air tours be 
determined?
    Answer. The FAA will make that determination.
    Question 2D. Is there agreement between the agencies on what a 
significant adverse effect might be?
    Answer. No, not at this time. This is a critical issue for both 
agencies, and therefore, the FAA and the NPS have established a working 
group to address this concern. The working group has not yet met, but 
NPS and FAA look forward to working together to develop a mutually 
acceptable definition.
    Question 3. Does the NPS have adequate authority to make a 
determination on the level of effect (either beneficial or adverse) 
that air tour operations may have on national parks? Are these 
determinations made separately or cooperatively?
    Answer. The NPS has adequate legal authority to make a 
determination regarding impacts that air tours may have on units of the 
national park system--under previously existing authority. 
Additionally, the NPATMA instructs the NPS to work with the FAA in 
making such determinations over units of the national parks system. The 
two agencies agree that determinations regarding impacts to park 
resources will be made jointly and cooperatively, not separately, since 
the Act requires both the FAA Administrator and the NPS Director sign 
the environmental documents required under NEPA.
    Question 4A. Even though the NPS has recently increased funding for 
air tour management, the funding level appears to fall far short of the 
40% agreed to in the MOU.
    How does the NPS expect to resolve this?
    Answer. The base budget for the ATMP has decreased. We are looking 
into the use of other funds including Environmental Quality funds 
(which must be used on court ordered or congressionally mandated EIS/
EA). The Natural Sound Program office has also identified base funding 
needs that would be necessary to help underwrite the costs of the 40% 
commitment to the FAA.
    Question 4B. Has the inability to meet this obligation to the FAA 
had any affect on the level that the NPS has been included in project 
level decision-making?
    Answer. Initially, yes; however, cooperation is improving. The 
agencies are more collaborative since the January meeting of senior 
officials from both agencies.
    Question 4C. What about in the planning process?
    Answer. See the answer to 4B above.
    Question 5. Does the National Park Service have the information it 
needs to determine whether a new entrant operator can be issued interim 
operating authority? What about for applications to increase tours?
    Answer. New entrants may be granted interim operating authority 
only if the Director ``. . . determines that it would not create a 
noise problem at the park or on the tribal lands.'' The NPS does not 
currently have the information it needs to make the necessary 
determinations regarding new entrants or applications for increases. 
The NPS is working with the FAA to improve the accuracy of the 
information from air tour operators that have interim operating 
authority because the number of existing authorized operations in a 
number of parks has a bearing on the consideration of increases and new 
entrants. The NPS and FAA are also working collaboratively to establish 
the criteria and processes necessary for making determinations on new 
entrants and increases in accordance with the requirements of the 
NPATMA.
    Question 6. What is the status of the renewal agreement between the 
Department of the Interior and local airport authorities for operating 
the airport at Jackson Hole, Wyoming?
    Answer. In order to remain eligible for FAA funding, the Jackson 
Hole Airport must have at least 20 years remaining on their agreement 
with the Department of the Interior. Since the existing agreement 
expires on April 27, 2033, the critical date for the airport will occur 
in 2013. The NPS has asked the Jackson Hole Airport Board to provide in 
writing the specifics of their proposal regarding the use agreement. 
Once we have received the information, a decision as to the most 
appropriate course of action will be made.
                      Questions From Senator Akaka
    Question 1. Does the Park Service have sufficient and adequate data 
on which to base the decision of whether there is an adverse effect on 
the natural soundscape of a Park?
    Answer. No, not currently. However, the NPS is currently collecting 
data through monitoring and modeling that will enable it to make such 
determinations. Furthermore, the NPS and the FAA are working on 
determining the thresholds for what constitutes a significant adverse 
impact.
    Question 2. Congress, has made it clear in the legislative history 
accompanying the Air Tour Management Act that, even though the FAA is 
the lead agency for the purpose of developing air tour management 
plans, the National Park Service is responsible for determining the 
impact of commercial air tours on park resources and visitor 
experience. Has the FAA made it clear in its rule-making process and in 
preparing additional guidance for implementing the Act that the NPS is 
to play the lead role in developing impact assessments?
    Answer. NPATMA specifies that FAA shall be the lead agency and NPS 
a cooperating agency for purposes of complying with the Council on 
Environmental Quality (CEQ) regulations, but also goes further than the 
CEQ regulations by directing that both agencies shall sign the 
environmental decision document. Given the NPS' jurisdiction and 
special expertise with regard to impacts on park resources and visitor 
experiences and the FAA's jurisdiction and special expertise with 
regard to the safety and environmental impacts of aircraft operations, 
we will work with FAA to clearly outline the roles for these agencies 
in the guidelines for development of ATMPS.
    Question 3. What, in your mind, would represent a significant 
adverse impact on a National Park in regard to the impacts of air 
tours?
    Answer. The NPS and FAA have established a working group to 
consider this issue. From the NPS perspective, the general laws and 
policies applicable to the National Park System provide some guidance 
on what would represent a ``significant adverse impact''; but in any 
given case, the NPS would need to examine the legislation specific to 
that unit, its resources and values, other visitor uses, overall 
management objectives, and reach a decision based upon the definition 
developed by the NPS and the FAA.
    Questiion 4. In the event of a tossup, as determined through 
effective NEPA and scientific analysis, between an adverse impact on a 
national park (or its fee-paying visitors) and an air tour operator's 
historic level of use, which should take precedence in the decision? 
Or, in your mind, how would this be resolved in the decision? How does 
your idea of impact significance fit into this determination?
    Answer. The Act is unequivocal in providing that impacts to park 
resources or visitor use would take precedence over a historic ``use'' 
by an air tour operator. The Act states that when an ATMP limits the 
number of commercial air tour operations over a national park during 
specified time frame, the Administrator, in cooperation with the 
Director, shall consider relevant factors including the following: the 
safety record of the pilot, quiet aircraft technology, experience 
flying over national park units, financial capability, training 
programs for pilots, and responsiveness to criteria developed by the 
NPS for the affected park. Historic use is only relevant with respect 
to the allocation allowed for an existing air tour operator. More 
specifically, allocations for interim operating authority are based on 
an average of the air tour operations the year preceding the enactment 
or the average of three years. The objective of the Act which is, ``. . 
. to develop acceptable and effective measures to mitigate or prevent 
the significant adverse impacts, if any, of commercial air tour 
operations upon the natural and cultural resources . . .'', clearly 
focuses on protecting park resources. The Act is straightforward in 
that if the historic use is shown to have a significant adverse impact 
upon a park unit, then the ATMP for that park must make recommendations 
to change the historic use to an acceptable level that would mitigate 
such impacts.
    Question 5. How do you consider the idea of park resources and 
values--their significance and ``uniqueness'' as established in 
legislation--against the notion of requiring justification for 
mitigating impacts including those that might be considered 
significant?
    Answer. While it is important to have, to the extent possible, a 
universal standard for what constitutes a significant adverse impact, 
each park presents a unique set of circumstances and resources to be 
protected that requires the standard to be adaptable. Consequently, in 
an interagency meeting held on January 28, 2004, both the NPS and the 
FAA agreed that the specific purposes for which a park unit was 
established as set forth in its enabling legislation, the resources and 
values of that specific park unit, along with the more general tenets 
outlined in the NPS Organic Act, must be factored into the 
determination of what impacts from air tours warrant mitigation, These 
factors will be considered in the NEPA analysis process for both 
impacts that reach the level of ``significant adverse impact'' and 
those that are adverse but less than significant.
    Question 6. I (Senator Akaka) would appreciate It you could provide 
me with the following information:
    Question 6A. Total obligations for each respective agency for the 
air tour management program from FY 2000 to FY 2004 (including 
personnel costs, travel, and all relevant object class categories).
    Answer. NPS obligations are as follows:




------------------------------------------------------------------------
FY2004.....................................................     $573,217
FY2003.....................................................     $931,258
FY2002.....................................................     $946,683
FY2001.....................................................     $947,651
FY2000.....................................................     $429,200
------------------------------------------------------------------------

    FAA Obligations are as follows:



------------------------------------------------------------------------
FY2004.....................................................   $8,113,000
FY2003.....................................................   $4,150,000
FY2002.....................................................   $8,204,000
FY2001.....................................................     $495,000
FY2000.....................................................           $0
------------------------------------------------------------------------

    Question 6B. For FY 2003 and 2004, the President's requested and 
enacted amounts for the air tour management program.
    Answer. NPS amounts are as follows:

------------------------------------------------------------------------
                   FY                        Requested        Enacted
------------------------------------------------------------------------
2003....................................      $1,004,000        $931,000
2004....................................        $939,000        $921,000
------------------------------------------------------------------------

    FAA amounts are as follows:

------------------------------------------------------------------------
                   FY                        Requested        Enacted
------------------------------------------------------------------------
2003....................................      $8,200,000      $4,150,000
2004....................................      $8,200,000      $8,113,000
------------------------------------------------------------------------

    Question 6C. An estimate of the annual amount of funding needed by 
both agencies to keep the implementation plan on schedule, assuming 
implementation in approximately 20 parks per year.
    Answer. The NPS Air Resources Division has identified a need of a 
$2.74 million base operating increase in order to fulfill all aspects 
of the Natural Sounds program including completing 10-20 ATMPs 
annually. This represents an annual operating base of $3.66 million. 
The NPS is responsible for 40% of the cost of preparing initial ATMPs. 
The estimated annual amount for funding needed by the FAA to keep the 
implementation plan on schedule is $9,081 million. These estimates, 
however, have not been reviewed through the Budget process or evaluated 
against other competing priorities. There may also be opportunities for 
reducing these costs through improved efficiencies and greater 
coordination with other programs or activities.


</pre></body></html>
